Semiannual Report
 to the Congress
 October 1, 1996 - March 31, 1997




    U.S. Geoeral Services Administration
         Office of Inspector General
              Foreword


This report, submitted pursuant to the Inspector General Act of 1978, as amended,
summarizes the activities of the Office of Inspector General (0IG) for the 6-month
reporting period that ended March 31,1997.

The OIG continued to work closely with GSA management to identify and implement
sound business management and operational improvements throughout GSA's
diverse business lines and service operations. In addition to our traditional audit and
investigative services, we have greatly expanded our efforts to provide professional
assistance through enhanced consulting services and active participation on Agency
improvement task forces. The value and success of our work in these non-traditional
roles is evidenced by increasing management requests for assistance, about 70 since
we started our consulting program. We have over 30 OIG representatives on various
Agency task forces.

We also expanded our advisory services initiative by issuing several advisory
evaluations informing managers of opportunities for operational improvements. An
example of this effort was an advisory report to Agency management on best practices
ofprivate contractors operating transportation and shipping services similar to the
GSA National Customer Service Center.

During this reporting period, we identified almost $66 million in financial
recommendations on how funds could be put to better use and in other program
savings. In addition, 231 referrals were made for criminal prosecution, civil
litigation, and administrative action. Criminal cases originating from OIG referrals
resulted in 15 successful prosecutions. The OIG also reviewed 133 legislative and
regulatory matters and received 2, 159 Hotline calls and letters. Savings achieved
this periodfrom management decisions onfinancial recommendations, civil
settlements, and investigative recoveries totaled over $225 million.

 In our continuing effort to meet the objectives of the Government Performance and
 Results Act, we are in the final stages of developing our OIG Performance Plan which
 will help us align our activities so they are more consistent with Agency strategic
 goals and business objectives. Our performance plan will allow us to put the OIG in
 the best position to help enhance the overall performance of GSA, while complying
 with our statutory mandate to prevent and detect fraud, waste, and abuse in Agency
 programs and operations.

 I want to take this opportunity to thank the GSA Acting Administrator, GSA's senior
 managers, and the Congress for their support. I also want to commend the OIG's
 employees for their continued dedication and willingness to accept new challenges
 and for their ability to keep mission-focused during this time of downsizing and
 reform.




  WILLIAM R. BARTON
  Inspector General

  April 30, 1997
      Table of Contents


                                                                               Page

Summary of OIG Performance ............................................ v

Executive Summary .................................................... vi

OIG Profile ............................................... : ............ 1

Procurement Activities ................................................... 2

Partnering with GSA Management ......................................... 7

Reviews of GSA Programs .............................................. 11

Emerging Issues and Concerns ........................................... 19

Prevention Activities ................................................... 22

Review of Legislation and Regulations .................................... 25

Statistical Summary of OIG Accomplishments .............................. 26

Appendices

Appendix I - Significant Audits from Prior Reports .......................... 33

Appendix II - Audit Report Register ....................................... 36

Appendix 111- Audit Reports Over 12 Months Old with Final Action Pending .... .49

Appendix IV - Delinquent Debts .......................................... 51

Appendix V - Reporting Requirements .................................... .52




                                                        Office of Inspector General iii
                      Summary of DIG Performance



OIG Accomplishments    October 1, 1996 - March 31, 1997

                       Total financial recommendations                                    $65,785,551

                       These include:

                           Recommendations that funds be put
                           to better use                                                  $35,629,450

                           Questioned cost                                                $30,156,101

                       Audit reports issued                                                        160

                       Referrals for criminal prosecution, civil
                       litigation, and administrative action                                       231

Results Attained       Management decisions agreeing with
                       recommendations, civil settlements, and
                       court-ordered and investigative recoveries                       $225,186,390

                       Indictments and informations on criminal referrals                           18

                       Cases accepted for criminal prosecution                                      14

                       Cases accepted for civil action                                               4

                       Successful criminal prosecutions                                             15

                       Civil settlements                                                             9

                       Contractors suspended/debarred                                               47

                       Employee actions taken on administrative
                       referrals involving GSA employees                                             5




                                                                            Office of Inspector General v
                                            Executive Summary


                                       GSA is now operating in a new, competitive environment. Its principal source of
                                       funding has switched from direct appropriations to reimbursable accounts and fee-
                                       based services. It is also adapting to downsizing and the various streamlining and
                                       reform initiatives; all are aimed at doing things better, cheaper, faster, and with fewer
                                       people. To help GSA management operate in this environment the OIG has focused
                                       its efforts on providing better, more timely, and more valuable assistance to Agency
                                       managers by introducing and expanding new forms of service. We have greatly
                                       expanded our consulting services and our participation on Agency improvement task
                                       forces. These services have been added while we continue to offer our more
                                       traditional services including program evaluations, contract and financial auditing,
                                       and internal controls reviews.

                                       Our consulting services are provided to management based on their requests, and are
                                       designed to be quick responses to specific program concerns. Since we began to
                                       offer consulting services, GSA managers have responded with about 70 requests for
                                       assistance. This period, for example, we provided the Office of Information
                                       Technology with a workload assessment for future operations resulting from
                                       significant downsizing and the loss of several key technical officials (page 7). We
                                       also assisted the Federal Protective Service in developing a cost allocation system to
                                       more accurately bill Federal customers (page 7). Additionally, the Office of
                                       Management Services requested our assistance to improve the delivery of various
                                       GSA administrative services (page 8).

                                       We assisted Agency task forces by providing advice on appropriate management
                                       controls for various reinvention efforts, and by offering possible solutions on several
                                       complex financial issues (page 8). We currently have over 30 OIG representatives on
                                       various Agency task forces. As examples, we are assisting the Chief Financial
                                       Officer with the redesign of the Agency's core financial management system
                                       (page 8), and a new system designed to allocate overhead using activity-based costing
                                       (page 9). We are also assisting the Federal Supply Service with the design of
                                       management controls over the new credit card system for fleet management
                                       (page 9), and the Public Buildings Service with developing improved mechanisms for
                                       rent forecasting and collections (page 9).

                                       We also issued two significant advisory evaluations. In our first advisory report we
                                       provided the GSA National Customer Service Center with the results of our best-
                                       practices review and benchmarking of how private sector shipping companies
                                       provided quality services and resolved shipping discrepancies (page 16). The second
                                       report involved GSA efforts to better identify ways to reduce its general management
                                       and administrative expenses as a way of improving efficiency and cost effectiveness
                                       (page 17). We reported that many GSA organizations were identifying ways of
                                       reducing costs and that further audit work was unwarranted. We also called to
                                       management's attention that prior GSA overhead study teams had made
                                       recommendations for improvement which, if acted upon, could provide opportunities
                                       for cost reduction.

                                       During this period, we conducted comprehensive program reviews and made
                                       recommendations for improvement in several of GSA's major programs and
                                       activities. In response to a request from the Chief Financial Officer, we reviewed the
                                       general management of and controls for the Federal Government's three major credit


vi Semiannual Report To The Congress
     Executive Summary


cards: the travel card, the general-use charge card, and the telephone card (page 11).
Our auditors also made recommendations to improve the timely resolution of the
Federal Telecommunications System's (FTS2000) price adjustments process
(page 12), and made recommendations to improve access to and operations of the
Federal telecommuting centers (page 14). We also issued a Governmentwide report
on the civilian agencies' aircraft management programs (page 13). The Federal
Government owns or operates over 1,500 civilian aircraft at total operating costs
exceeding $1 billion annually. Our work involved coordinating 10 Federal OIGs in
their reviews oftheir agencies' aircraft safety, maintenance, and management
programs.

An important part of our work effort is to provide support to Agency contracting
officers and to protect the integrity of GSA procurement programs and operations by
detecting and preventing fraud, waste, and abuse. This period, several private sector
contractors agreed to pay over $3 million to resolve potential civil liability under the
False Claims Act (page 2). The contractors provided a wide array of products and
services such as office furniture, pay telephones, lawn and garden equipment, hand
tools, and electrical supplies. The violations included overcharges, false claims,
violations of the Trade Agreements Act, failure to provide price reductions, false
certifications of pricing data, and product safety violations (pages 2-3). In addition,
an office furniture supplier made a final payment of over $2.3 million (total settlement
of $5.2 million) to cover overcharges to Federal customers on 15 Multiple Award
Schedule contracts.

We also completed an internal audit in the procurement area in which we reviewed
the Agency's procedures for identifying poorly-performing Government contractors
and for referring poor performers for debarment consideration (page 3). We
participated in a joint investigation with the Federal Bureau of Investigation, the
Department of Transportation, and the Defense Criminal Investigative Service, which
uncovered over $1 million in stolen Government property including TVs, VCRs,
chain saws, clothing, and hand tools (page 4). Other investigations resulted in civil
recoveries, convictions, and/or suspensions and debarments in cases involving mail
fraud, false claims, and bribery in connection with a variety of products and services
(pages 4-6).

The OIG made almost $66 million in financial recommendations to better use
Government funds, and in other program costs savings; made 231 referrals for
criminal prosecution, civil litigation, and administrative actions; reviewed
133 legislative and regulatory actions; and received 2,159 Hotline calls and letters.
This period, we achieved savings from management decisions on financial
recommendations, civil settlements, and investigative recoveries totaling over
$225 million. See page v for a summary of this period's performance.

We also report this period on emerging issues and concerns. During the last 6 months
two issues developed that are of significant concern for the OIG and for the Agency.
The first involves the proper resolution of disputes between an OIG and an agency
when the OIG has questioned the authorities under which the agency head has taken
action. The specific issue centers on a disagreement between the Inspector General
and the Agency arising out of OIG concerns that the Administrator may have
exceeded his authority in compromising debt in a credit transaction related to the


                                                             Office of Inspector General vii
                                              Executive Summary


                                         disposal of surplus real property. The OIG has requested independent opinions from
                                         the Attorney General and the General Accounting Office (GAO) (page 19). The
                                         second issue involves the recently highly publicized GSA disclosure that its forecast
                                         of rent revenue for Fiscal Year (FY) 1996 and FY 1997 exceeded actual rent income
                                         by over $680 million and that it therefore could not fund all the projects authorized by
                                         Congress (page 20).

                                         Weare continuing with our internal organizational changes to enhance our ability to
                                         provide the services and products GSA needs to help meet its mission and to improve
                                         its overall management and performance. Weare working hard to increase
                                         productivity and shorten delivery time frames for our services. The entire staff has
                                         worked to reduce overhead and administrative costs. In addition, we increased the
                                         solicitation of feedback from our customers on the quality of our reports and services.
                                         Satisfaction ratings have substantially improved since our initial survey last year.




viii Semiannual Report To The Congress
                                  DIG Profile


                      The GSA OIG was established on October I, 1978 as one of the original 12 OIGs
                      created by the Inspector General Act of 1978. The OIG'sfive components work
                      together to peiform the missions mandated by the Congress.

Organization          The OIG provides nationwide coverage of GSA programs and activities. It consists
                      of:

                          The Office of Audits, an evaluative unit staffed with auditors and analysts who
                          provide comprehensive audit coverage of GSA operations through program
                          performance reviews, internal controls assessments, and financial and mandated
                          compliance audits. It also conducts external reviews to support GSA
                          contracting officials to ensure fair contract prices and adherence to contract
                          terms and conditions. To increase its ability to meet customer needs, the office
                          has added advisory and consulting services to its service offerings.

                          The Office of Investigations, an investigative unit that manages a nationwide
                          program to prevent and detect illegal and/or improper activities involving GSA
                          programs, operations, and personnel.

                          The Office of Counsel to the Inspector General, an in-house legal staff that
                          provides legal advice and assistance to all OIG components, represents the orG
                          in litigation arising out of or affecting OIG operations, and manages the OIG's
                          legislative/regulatory review functions.

                          The Internal Evaluation Staff, an in-house staff that plans and directs field
                          office appraisals and conducts internal affairs reviews and investigations.

                          The Office of Administration, an in-house staff that provides information
                          systems, budgetary, administrative, personnel, and communications services.

Office Locations      The OIG is headquartered in Washington, D.C., at GSA's Central Office building.
                      Field audit and investigations offices are maintained in Boston, New York,
                      Philadelphia, Atlanta, Chicago, Kansas City, Fort Worth, San Francisco, and
                      Washington, D.C. Sub-offices are also maintained in Auburn, Cleveland, and Los
                      Angeles.

Staffing and Budget   The orG started FY 1997 with a total on-board strength of 316 employees. As of
                      March 31, 1997, our on-board strength was 287 employees.

                      The OIG's FY 1997 budget was approximately $33.8 million.




                                                                                  Office of Inspector General 1
                                          Procurement Activities


                                      GSA is responsible for providing working space for almost 1 million Federal
                                      employees. GSA, therefore, acquires buildings and sites, constructs facilities, and
                                      leases space, as well as contracts for repairs, alterations, maintenance, and
                                      protection of Government-controlled space. GSA also operates a Governmentwide
                                      service and supply system. To meet the needs of customer agencies, GSA contracts
                                      for billions of dollars worth of equipment, supplies, materials, and services each year.
                                      We review these procurements on both a preaward and postaward basis to ensure
                                      that the taxpayers' interests are protected.


Significant OIG                       Over $3 Million in Civil Recoveries
Accomplishments                       During this period, the Government entered into 9 settlement agreements in which
                                      companies agreed to pay over $3 million to resolve their potential civil liability under
                                      the False Claims Act. These agreements, negotiated by representatives of the
                                      Department of Justice and the GSA OIG, reflect the ongoing efforts of the OIG to
                                      pursue cases involving procurement fraud and practices which threaten the integrity
                                      of the Government's procurement process.

                                      Many of these cases involved procurements under GSA's Multiple Award Schedule
                                      (MAS) program. Under this program, GSA negotiates contracts with a number of
                                      vendors who may then sell covered products to Federal agencies at established
                                      contract prices. Consistent with the provisions of the Truth in Negotiations Act and
                                      the Competition in Contracting Act, the process is based on the principles of full and
                                      open disclosure and fair negotiations. Vendors must provide current, accurate, and
                                      complete pricing information-including information about discounts granted their
                                      most favored commercial customers-during contract negotiations. Relying on this
                                      information, GSA contracting personnel then seek to obtain the best possible prices
                                      for the Government. In cases where vendors fail to provide current, accurate, or
                                      complete information, the Government may pay artificially inflated prices for
                                      products and services purchased. Highlights of some of these cases follow.

                                      •    A company that sells office furniture to the Government made a final payment
                                           this period of $2,302,744 to resolve its potential civil False Claims Act liability
                                           for overcharging Federal customers on 15 MAS contracts. Payments by the
                                           company on this matter total $5,107,321. Brought to the attention of the
                                           Government by the company under the OIG voluntary procedures, the company
                                           disclosed that between 1987 and 1993, it had failed to offer the Government the
                                           same reductions in price it had offered its dealers as was required under the
                                           contracts. An OIG investigation and audit confirmed the overcharges. The OIG
                                           also found that the company had received rebates or discounts from freight
                                           companies which the company did not pass on to its Government customers,
                                           resulting in overcharges to the Government.

                                           In a case brought under the qui tam provisions of the False Claims Act, a
                                           telecommunications company agreed to pay $405,000 to resolve its potential
                                           liability for overcharging Federal customers for the use of pay telephones in
                                           Federal buildings. The Government received $300,000 as its portion of this
                                           settlement. The qui tam provision in the Act allows individuals to bring suit, on
                                           behalf of themselves and the Federal Government, against contractors who
                                           submit false claims to the Government.


2 Semiannual Report To The Congress
  Procurement Activities


    A company that supplied office products agreed to pay $250,000 to settle the
    Government's claims that it violated the civil False Claims Act. The company
    provided products that were from a country that is not a "designated end country"
    as required by the Trade Agreements Act.

    A company that sold office furniture and distribution equipment to Federal
    customers agreed to pay $220,000 to settle the Government's claims that it failed
    to provide GSA negotiators with current, accurate, and complete data when
    negotiating its contract. The settlement also resolved the Government's claim
    that the company failed to pass along price reductions related to shipping costs.

    A company that supplies lawn and garden equipment to Federal customers under
    the MAS program agreed to pay $180,000 to resolve its potential civil False
    Claims Act liability. The Government alleged that the company failed to
    accurately disclose its commercial discounting practices to GSA negotiators and,
    as a result, Federal customers paid too much for the company's product
    throughout the life of the contract.

    A company that sold defective electrical supplies to the Government agreed to
    settle its potential civil False Claims Act liability. The company's product did
    not meet Underwriters Laboratory safety criteria, as required by the contract.


Debarment Program
While reviewing a regional Public Buildings Service (PBS) contract, we observed that
even though a particular company had been terminated for default for poor performance
several times in recent years, it had remained eligible for, and continued to bid on
additional GSA contracts. This contractor had not been referred for debarment action.
Upon further review, we found that the PBS contracting officers nationwide had not
referred any poorly-performing contractors to the Agency debarment official for
debarment consideration during the last 3 years.

Debarment, a discretionary action taken by an Agency official, excludes a company
from Government contracting and Government-approved subcontracting for a specified
period of time. The Federal Acquisition Regulation lists causes for debarment and
requires agencies to establish procedures for the prompt reporting, investigating, and
referral to the debarring official of matters appropriate for the official's consideration.

GSA contracting officers are charged with systematically collecting contractor
performance information and using this historical information during the acquisition
process to ensure that contracts are awarded to only responsible, prospective
contractors. We found, however, that the contracting officers have no past performance
data base available for identifying contractors with a history of poor performance.
Contracting officials also indicated that they were unsure of procedures to initiate
debarment action.

We learned that PBS is in the process of developing a new information system data base
of contractors' performance for contracting otIicers to use in making source selection
decisions. We recommended that this system be modified to report poor contractor
performance history.                                                            '


                                                                Office of Inspector General 3
                                          Procurement Activities


                                      In our March 26, 1997 report to the Commissioner, PBS, we recommended that the
                                      Acquisition Executive:

                                      •    Modify the new contractors' performance data base to alert contracting officers of
                                           contractors who are awarded contracts but subsequently perform poorly.

                                           Provide debarment program training to improve contracting officer referrals of
                                           poorly-performing contractors for debarment consideration.

                                      The Commissioner agreed with our recommendations. The report is still in the
                                      resolution process.


                                      Program Fraud Civil Remedies Act
                                      Under the Program Fraud Civil Remedies Act, Federal agencies can institute
                                      administrative proceedings to recover damages and penalties from a person or entity
                                      that presents false claims or makes false statements to the Government. Agencies
                                      can recover twice the amount of damages to the Government and penalties of up to
                                      $5,000 per violation.

                                      In a matter pursued under the Act, a company that sells precision measuring and hand
                                      tools agreed to pay $30,446 to settle the Government's allegations that it violated the
                                      Buy American Act when it provided Federal customers with foreign-made tools in
                                      violation of its contract with GSA.


                                      Theft of Government Property
                                      Three Government officials have pled guilty to theft of Government property.
                                      Sentencing is scheduled for May 1997.

                                      The investigation was initiated when the Defense Criminal Investigative Service
                                      (DCIS) disclosed to GSA that between October 1993 and November 1994 several
                                      employees had acquired a significant amount of surplus property. The amount and
                                      nature of the surplus property made the legitimacy of the acquisitions suspect.

                                      A joint investigation by GSA, DCIS, the Department of Transportation, and the
                                      Federal Bureau of Investigation (FBI) determined that the three officials removed
                                      property with an acquisition cost of $1,034,000 from the Federal surplus property site.
                                      The property included televisions, video cassette recorders, air conditioners, lawn
                                      mowers, wagons, hand and power tools, generators, chain saws, and clothing. None
                                      of the property was reported or recorded in Federal property books. Repeated
                                      surveillance disclosed that an extensive amount of property was distributed to civilian
                                      employees and taken to the homes of these officials. Approximately $500,000 of the
                                      stolen property has been recovered.


                                      Securities Fraud Conviction
                                      On December [2, 1996, a former private sector economic development director was
                                      sentenced in U.S. District Court after pleading guilty to securities fraud and theft of
                                      Government property. The official was sentenced to 36 months probation, 90 days


4 Semiannual Report To The Congress
  Procurement Activities


home confinement, and fined $3,000 for securities fraud. Also, the director was
sentenced to 12 months probation for theft of Government property.

This investigation was initiated when GSA indicated to the OIG that program
irregularities had been noted and it appeared that the director had been "loaning"
Federal surplus property to private enterprises under the auspices of "economic
development." The official allegedly had a business interest in other private
enterprises.

The investigation disclosed the director had misappropriated property valued in
excess of $392,000 that had been donated to the city under the guise of economic
development. The official had acquired donated property for use at a private
enterprise which served as a "prop" to perpetuate the investment scam.

Further investigation of other private enterprises is continuing.


Bribery Conviction
As a follow-up to an earlier OIG investigation resulting in the conviction of a GSA
employee for soliciting and accepting cash payments from various GSA electrical
suppliers, we initiated an investigation of a particular GSA lighting equipment
supplier. The investigation disclosed that the supplier devised a scheme with the
former GSA electrician to establish three "dummy" businesses through which he sold
in excess of $50,000 worth of lighting supplies to GSA. The three "dummy"
businesses were established to conceal the true identity of the supplier and the actual
volume of GSA orders being placed to businesses owned by the supplier.
Investigators determined that the supplier provided the former GSA electrician a
10 percent payoff in exchange for GSA lighting supply orders.

On January 17, 1997, the GSA lighting equipment supplier was sentenced in U.S.
District Court to 2 years probation and ordered to pay a $5,000 fine and a $50 special
assessment fee. The supplier had pled guilty to bribery of a public official.

Suspension and debarment proceedings have been initiated.


Mail Fraud Conviction
On January 15, 1997, a city official pled guilty in U.S. District Court to charges of
mail fraud in connection with the surplus property program. Sentencing is scheduled
for April 1997.

A joint GSA and FBI investigation was initiated when a state audit of purchases under
its surplus property program determined that items were being secured for non-
official purposes. It was alleged that the city official was responsible for the purchase
of inappropriate items through this surplus program as well as the surplus property
program administered by GSA.

The investigation disclosed that the city official used issue cards to acquire both state
and Federal surplus property for his own personal use, and resold some of it for
personal profit. It was found that the city official and others would disguise their


                                                               Office of Inspector General 5
                                        Procurement Activities


                                      personal use of the property by paying for it with checks from the city, certifying that
                                      the property would be used solely for official business. The official used the U.S.
                                      mail in furtherance of the scheme.




6 Semiannual Report To The Congress
Partnering with GSA Management



   New Value-Added Assistance Services
   This period the OIG has greatly expanded efforts to provide value-added professional
   assistance to GSA through decision-enhancing consulting services and participation on
   Agency improvement task forces. As with our other services, these efforts remain
   focused on finding ways to help the Agency become more efficient and effective. By
   offering these non-traditional services to Agency officials, the OIG is furnishing
   information sought by managers for improving decision making, program outputs, and
   mission accomplishment. In addition, managers requesting assistance now can receive
   a response faster because innovative methods are being used to quickly develop data
   and deliver results. Since announcing these new non-audit evaluation services, the
   OIG has received about 70 requests for assistance. The nature of our efforts as well as
   the breadth of services are highlighted in the following paragraphs.

   Consulting Services. These OIG efforts are designed to provide management with
   quick, upfront responses to specific program concerns. Because consulting services
   are initiated by management and not by the OIG, requesting officials are able to both
   define and limit the scope of the consulting project. In this partnering relationship with
   Agency management, information objectively developed by the OIG is provided for
   the interpretation and discretionary use of the requesting official. Accordingly,
   consulting service products are distributed only to requesting officials and provide
   observations and alternatives for consideration in lieu of formal audit
   recommendations. Consulting projects concluded this period include:

       Workload Assessment for Future Operations - The Assistant Commissioner,
       Office ofInformation Technology, asked the OIG to assess how downsizing
       affected a major procurement activity and what alternatives existed for viable
       future operations. Facing a 50 percent loss of technical staff including the
       retirement of several key officials due to downsizing in the procurement activity,
       Agency management requested the OIG to develop and analyze alternatives for
       reorganizing, relocating, and restaffing operations. Because of the highly
       technical nature of the activity, the level of expertise needed to continue effective
       operations was critical, but could easily be lost by geographical relocation of the
       function. Likewise, relocation and termination costs were major concerns. By
       applying abbreviated analytical techniques and interviewing key stakeholders, the
       OIG was able to expeditiously develop several viable alternatives emphasizing the
       continuing delivery of high quality information technology services. After
       briefing Agency officials regarding the consulting project results, the OIG was
       asked to brief the affected operational staff members on the alternatives. Further,
       the Commissioner of the Information Technology Service forwarded the OIG
       report to the Office of Management and Budget (OMB) to keep them informed
       regarding the availability of information technology procurements in the future.

       Development of Cost Allocation Systems - A regional Portfolio Manager, PBS,
       asked the OIG to assist the Federal Protective Service in developing a cost
       allocation system aimed at generating a cost per square footage protection billable
       rate that could be used to charge Federal agencies occupying Government-owned
       and Government-leased space. Our initial product addrcssed methods for
       developing direct labor costs, allocating costs to Federally-occupied buildings, and
       segregating costs by major protection category. By applying sophisticated cost



                                                                  Office of Inspector General 7
                                  Partnering with GSA Management


                                          accounting methodologies, the OIG was able to propose improved allocation
                                          strategies that could result in more equitable distribution of the GSA protection
                                          costs. To get information quickly to program managers, the OIG used briefing
                                          materials to inform managers regarding the parameters and potential benefits of
                                          adopting proposed allocation methods. OIG efforts are continuing regarding
                                          alternative methods for allocating indirect, equipment, and overhead protection
                                          costs.

                                      •   Delivery Options for Administrative Services - The Director, Office of
                                          Management Services, requested that the OIG assess several different, but
                                          interrelated aspects regarding the delivery of administrative services in GSA.
                                          These included identifying the impact of transferring personnel from centralized
                                          management service functions in Agency regional offices to line activities,
                                          comparing delivery methods and organizational structures used in GSA activities
                                          with those used in other Federal and state agencies, and assessing the viability of
                                          the proposed restructuring of the headquarters' administrative function. The OIG
                                          used customer questionnaires to gather information regarding the satisfaction
                                          levels within differing regional delivery structures and the relative importance of
                                          primary administrative services, and compiled information on delivery
                                          alternatives used by other state and Federal organizations and provided
                                          comparative data to GSA officials. In addition, the OIG offered alternatives for
                                          restructuring the headquarters' activities to include eliminating duplicative
                                          functions, moving away from traditional office structures, and considering
                                          partnering with other entities.

                                      Overall, Agency officials have been very complimentary regarding the new OIG
                                      consulting services. One program manager commented that the organization could not
                                      have completed its assessment in such a timely fashion without the OIG's professional,
                                      objective, and thorough assistance. Another official commended the review team for
                                      the thoroughness of its review, noting that the briefing methodology used by the team
                                      was an excellent way of relaying information quickly without having to wait for a final
                                      written report A third key official stated that the information provided was the data
                                      needed to make informative management decisions. Finally, program officials stated
                                      that their offices would consider seeking similar consulting services in the future.

                                      Task Force Participation and Monitoring Activities. These efforts involve
                                      furnishing proactive advice and counsel to Agency task forces and assigning OIG
                                      representatives to work with GSA managers while monitoring ongoing Agency
                                      initiatives. In either instance, OIG representatives are available to advise management
                                      at the earliest possible opportunity of potential problems, help ensure that appropriate
                                      management controls are provided when reinventing Agency systems, and offer
                                      possible solutions when addressing complex financial issues. The demand for this new
                                      pmtnership effort has been significant as we now have over 30 OIG representatives
                                      involved in providing these services. Some of the ongoing areas in which the OIG is
                                      involved include:

                                          NEAR Reengineering Project - The Chief Financial Officer (CFO) asked that the
                                          OIG be involved in the replacement of the core GSA financial system (NEAR).
                                          This involves assisting the Agency in developing a single entry, on-line financial
                                          reporting system using client server technology. OIG representatives are


8 Semiannual Report To The Congress
Partnering with GSA Management


       participating members in developmental teams formed to address funds
       management, accounts payable, accounts receivable, cost management, general
       ledger and accounting classifications, and financial reporting. This project is
       expected to last 3 years.

       Fleet Services Credit Card Project - The OIG is advising the Fleet Management
       Division, Federal Supply Service (FSS), in efforts to establish a new credit card
       system that permits point of sale data collection and improves accountability over
       gasoline purchases and minor repair services for GSA's fleet vehicles. The OIG
       will provide continuing counsel to the Agency task force, particularly in the areas
       of management controls and exception reporting involving credit card purchases.

       Cost Accounting Implementation - The CFO also requested OIG involvement in
       the Agency-wide implementation of cost management pilot projects for allocating
       overhead using the activity-based costing methodology. Working in conjunction
       with two pilot project teams, the OlG is providing expertise in developing
       nationwide activity-based costing models for two GSA business activities in order
       to improve performance and increase competitiveness.

       Forecasting Rent for Federal Buildings - The Commissioner, PBS, requested that
       the OIG provide advice and counsel to the Agency task force seeking to improve
       upon revenue forecasting as well as collection and income accounting associated
       with space usage by Federal agencies. A key aspect of the reengineering project is
       to ensure that client agencies, OMB, and Treasury officials, as well as PBS space
       managers, can obtain space usage, billing, and payment information at any time.

   Clearly, GSA managers are seeking to discover new methods for delivering effective
   products and services in today's highly competitive markets. Likewise, we are
   challenged by the diverse nature of the many assistance requests received.
   Nevertheless, the OIG is working with Agency officials to ensure that the alternatives
   pursued build upon technologically enhanced delivery methods, providing both the
   management tools and financial information systems needed to ensure long term
   operating accountability and effective program outcomes. We believe continuing our
   partnering arrangements with Agency officials will maximize taxpayers' return on
   investment as GSA strives to become the provider of choice within the Federal
   community.

   In participating directly with the Agency on task forces we are able to contribute our
   expertise and advice, improve our own familiarity with the Agency's rapidly changing
   systems, and still maintain our ability to independently audit and review programs.
   Our participation is typically as a non-voting advisory member and we maintain a strict
   policy of excluding staff members who have served on developmental task forces from
   subsequent audits of the same subject areas.


   Agency Input to Improve OIG Services
   The OIG is working to provide more cost-effective, timely, useful, value-added
   services and products to GSA managers. Accordingly, this period we expanded our
   solicitation of feedback from our customers on the quality of our reports and the level
   of services provided. In the contract audit area, the responses received show that our


                                                                Office of Inspector General 9
                                 Partnering with GSA Management


                                       partnering efforts are having a positive impact upon the usefulness of contract audits
                                       and related services provided to Agency contracting officials. Satisfaction ratings
                                       have substantially improved since we conducted the initial survey in May 1996. The
                                       other survey areas do not have enough data collected to fully assess progress.

                                       We believe the following comments, received from the GSA contracting officers, are
                                       reflective of the continuing progress being made by the OIG to meet customer needs:

                                           "I want to express my appreciation for the effort made by the entire audit
                                            staff in preparing the audits. The support 1 have received from these
                                            individuals has been very helpful in preparing the Government's position.
                                            The audits have been delivered timely, give a clear logical explanation of
                                            the audit conclusions and contain the data required to develop a position."

                                           "I am a satisfied customer. The auditors specifically and the office in general
                                            have done everything 1 could hope for in helping prepare my technical staff
                                            for negotiations. 1 look forward to working with them ... "

                                           "The audit findings were instrumental in providing the contract specialist
                                            with a basis to negotiate substantially improved discounts."

                                           'The auditor helped in all areas. He made sure I understood each issue."

                                           "Your staff expedited this audit allowing this office to finish negotiations
                                            timely and receive a fair and reasonable price for services."

                                       Our office is also seeking feedback from our internal customers regarding the quality
                                       of our final audit products and the level of service provided during the review effort.
                                       Baseline survey ratings have been compiled and customer satisfaction questionnaires
                                       are being finalized for distribution with each final internal audit report. Weare
                                       optimistic that the ratings will indicate the same level of improvement in our efforts.




10 Semiannual Report To The Congress
                  Reviews of GSA Programs


                  GSA is a central management agency that sets Federal policy in such areas as
                  Federal procurement, real property management, and telecommunications. GSA also
                  manages diversified Government operations involving buildings management, supply
                  facilities, real and personal property disposal and sales, data processing, and motor
                  vehicle and travel management. In addition, GSA manages 197 accounting funds and
                  provides cross-servicing support for client agencies. Our audits examine the
                  efficiency, effectiveness, and integrity of GSA programs and operations and result in
                  reports to management. Our internal audits program is designed to facilitate
                  management's evaluation and improvement of control systems by identifying areas of
                  vulnerability and providing informational and advisory services.


Significant OIG   Charge Card Programs
Accomplishments   GSA has established several major credit card systems providing easy and quick
                  means to Government customers for making purchases of supplies and services.
                  These charge card programs cover essential and diverse needs of Government
                  employees, making it possible for card holders to complete official travel, make
                  supply and service procurements, and use long-distance telephone services in an
                  economical and expeditious manner.

                  In response to a request from the CFO, the OIG initiated an audit of the Agency
                  charge card programs. Our review examined general management and card issue and
                  user controls over the American Express (AMEX) travel card, the general-use
                  International Merchant Purchase Authorization Card (IMPAC), and the Sprint
                  FONCARD programs.

                  We evaluated management controls over the AMEX, IMPAC, and FONCARD cards
                  to determine whether measures existed to ensure that only authorized employees can
                  obtain cards, card users can make only valid purchases within their established limits,
                  billings are accurate, payments are proper and timely, and refunds are accurate and
                  timely. Also, our review examined controls to decide if they can be improved to
                  provide better customer service and/or result in cost savings.

                  Our review found the charge card program controls, combined with those used by the
                  charge card vendors, are generally adequate to prevent or detect significant misuse of
                  the AMEX, IMPAC, and FONCARD cards.

                  We also concluded, however, that GSA should develop better controls to ensure that
                  the IMPAC vendor refunds are made accurately and paid timely. Management
                  officials intend to address this issue by enforcing compliance with contract terms
                  regarding refund payments.

                  Furthermore, our report identified areas where GSA could enhance individual
                  program controls to prevent or detect misuse. Greater efficiencies and enhancements
                  could result through the consolidation of responsibility for the three charge card
                  programs. These benefits include:

                      Control over the cards would be significantly enhanced because there would be
                      a single point of contact for ordering, maintaining, and canceling cards.




                                                                              Office of Inspector General 11
                                       Reviews of GSA Programs


                                           Program administration would be more efficient because GSA would only need to
                                           capture employee data one time in a single database.

                                           Communications among cardholders, supervisors, program officials, and vendors
                                           would be simplified through a single point of contact for program policies and
                                           procedures, questions or problems, and billing information.

                                           A center of expertise for the GSA charge card programs would be developed.

                                       Since the charge card programs are either currently or will soon be subject to reprocure-
                                       ment, we advised the CFO that GSA should use new procurements as opportunities to
                                       effect major changes in the control environment. We suggested that prior to initiating
                                       reprocurement action, the Agency may want to identify other ways to improve controls
                                       and reduce resource requirements by discussing and comparing its policies and
                                       procedures with vendors, other Government and corporate card users, and firms who
                                       accept GSA charge cards. Also, GSA could encourage potential charge card vendors to
                                       assist in developing ways for ensuring that accounts are canceled when cardholders
                                       leave the Agency; tracking, managing, and updating cardholder information; and
                                       guaranteeing that calling card charges are accurate and for Agency-approved purposes.

                                       Finally, we concluded that because many managers and cardholders do not fully
                                       understand the AMEX, IMPAC, and FONCARD programs, card users would benefit
                                       from some form of refresher training. Cardholders and supervisors would be more
                                       knowledgeable in appropriate use of the cards. GSA could also use training as a way to
                                       implement control enhancements or consolidate management of charge card programs.

                                       The March 31, 1997 report recommended that the CFO work with the offices responsible
                                       for each of the charge card programs to develop and implement methods to instruct and
                                       assist cardholders, approving officials, and program administrators in the proper use of
                                       each type of credit card.

                                       The CFO agreed to take action in response to the report's recommendation. The report is
                                       still in the resolution process.


                                       Federal Telecommunications Service
                                       The FTS2000 contract provides Federal agencies with long-distance
                                       telecommunications services through two vendors. It has been characterized as the
                                       largest private telecommunications system in the world, as well as the largest non-
                                       aerospace civilian-agency procurement.

                                       The OIG continued to review important aspects of the FTS2000 contract. Previous
                                       Semiannual Reports to the Congress have reported concerns of the OIG with contract
                                       changes, overall administrative practices, and state and local taxes imposed on services.
                                       An audit we conducted this period focused on price adjustments.


                                          FTS2000 Price Adjustments
                                          During the period April 1993 through March 1996, GSA reduced the
                                          Government's telecommunications costs by about $45 million through the use of


12 Semiannual Report To The Congress
Reviews of GSA Programs


   a Publicly Available Price Cap (PAPCAP). The FTS2000 contract requires
   price adjustments in order to ensure that its services remain competitive with
   commercial prices over the life of the contract. This is to be accomplished
   through the application of PAPCAP to contract prices. The contract was
   modified twice to clarify P APCAP procedures.

   PAPCAP, as implemented in April 1993, defined how and when FTS2000 price
   reductions should occur. Its purpose was to ensure that prices remained lower
   than comparable commercial prices. These reductions were based on quarterly
   comparisons of FTS2000 prices with publicly available prices. The PAPCAP
   contract modifications expired in March 1996. The FTS2000 contracts are
   scheduled to end in December 1998.

   We evaluated the Agency's use of the PAPCAP and found that while PAPCAP
   has indeed reduced the Government's cost by nearly $45 million, claims for
   additional savings remain unresolved. The vendors have disagreed with the
   PAPCAP calculations in 10 out of 12 quarters since April 1993. When
   disagreements were not resolved within 10 days, the Agency considered the
   price adjustment change to be in dispute. An estimated $8.5 million of disputes
   have not yet been resolved.

   Our December 2, 1996 report recommended that the Commissioner, Federal
   Telecommunications Service:

   • Resolve carrier disagreements arising from the PAPCAP price adjustment
     calculations and recover the amounts due the Government with interest.

   • Prescribe a suitable process for the timely resolution of disputed amounts in
     any future contracts that include price control mechanisms similar to
     PAPCAP.

   Responsive action plans were provided for implementing the report
   recommendations.


Aircraft Management Programs
The civilian agencies of the Federal Government own or operate over 1,500 aircraft at
an operating cost in excess of $1 billion annually. Concerned that this air fleet was
not sufficiently safe, was inefficient, and lacked a coordinated approach for
developing systems and standards, the Chairman of the Senate Subcommittee on
General Services, Federalism and the District of Columbia requested that the
President's Council on Integrity and Efficiency undertake a comprehensive
examination of the civilian aircraft program.

Because GSA has the assigned responsibility for coordinating and fostering efforts to
improve the management and cost effectiveness of Federal civilian agencies' aircraft
operations, our OIG took the lead for this audit. We were joined by the OIGs of the
10 Federal agencies that operate 99 percent of the aircraft fleet.




                                                            Office of Inspector General 13
                                       Reviews of GSA Programs


                                       Over the last few years, the participating OIGs issued a total of 20 audit reports,
                                       assessing in detail the aircraft operations of their respective agencies. This period, our
                                       office issued the final overall management report which summarizes the work
                                       performed by the OIGs and highlights the positive steps taken by agencies'
                                       management, OMB, and the Congress to improve aircraft safety and increase
                                       operating efficiencies.

                                       The audit work performed by the participating OIGs confirmed that individual agency
                                       aircraft programs continued to experience many of the safety, operational, and
                                       administrative shortcomings that had concerned members of Congress. Collectively,
                                       the OIGs identified over $56 million in potential savings should their respective
                                       agencies adopt recommendations for changes in operational methods and procedures.
                                       The OIGs also made several recommendations to their agencies to address safety
                                       issues. Overall, agencies' management have been responsive to the OIGs'
                                       recommendations.

                                       In addition, GSA and its Interagency Committee on Aircraft Policy (ICAP) developed
                                       aircraft safety, operation and maintenance manuals, as well as training and inspection
                                       programs, to assist the agencies in improving their programs. The Congress also
                                       enacted Public Law 103-411, to require Government-owned aircraft used for cargo
                                       and passenger carrying purposes to comply with Federal Aviation Administration
                                       (FAA) regulations and provide the National Transportation Safety Board with the
                                       authority to investigate all public aircraft accidents.

                                       We noted that these actions go a long way towards addressing concerns relating to
                                       aircraft safety. Nevertheless, GSA and ICAP need to continue working closely with
                                       FAA on safety initiatives to ensure that FAA is kept apprised of the policies and
                                       procedures being developed for Governmental aircraft. We further believe that
                                       agency oversight by the OIGs, GSA, ICAP, and Congress will continue to ensure that
                                       progress is made toward enhancing the respective agencies' aircraft safety programs.

                                       We did not make additional recommendations in our summary report since the
                                       agency-specific reports contained the respective OIGs recommendations for
                                       corrective actions. However, we do believe that progress should be monitored
                                       carefully, and a comprehensive reassessment of the Federal Government's
                                       management of the civilian aircraft program should be undertaken after the agencies
                                       have had a reasonable period of time to implement corrective actions based on the
                                       specific recommendations.


                                       Telecommuting Centers
                                       In 1993, GSA began creating partnerships with local governments and community
                                       officials in the Washington, D.C. area to create telecommuting centers. These centers
                                       provide alternative office settings where Federal employees can perform work
                                       assignments without having to travel the long distance to their usual places of
                                       business. By 1996, GSA had opened six centers under the Congressionally-funded
                                       Flexiplace Telecommuting Center program.

                                       Several GSA offices outside of Washington, D.C. have begun to establish small
                                       telecommuting centers within their own regions. This period, we reviewed those


14 Semiannual Report To The Congress
Reviews of GSA Programs


centers being established by regiona16ffices under their own initiatives. We focused
on the Agency's role in the Federal Government's telecommuting initiatives, as well
as the recovery of costs associated with regional telecommuting centers and the
methods being used to recover these costs.

The report noted that the Agency has the opportunity to expand the functions of the
office responsible for the program. This office represents GSA on interagency task
forces and is responsible for planning, coordinating, and evaluating a wide range of
telecommuting, distributed work, and office initiatives in collaboration with other
Federal agencies, State and local governments, and the private sector.

We have suggested that several functions could be added to this office's
responsibilities, to include:

    providing assistance to GSA regional offices in their telecommuting initiatives,

    determining funding arrangements for regional offices in both the types of costs
    that need to be recovered through a user charge to customer agencies and
    mechanism(s) to charge those agencies,

    drafting GSA telecommuting policy,

    marketing and expanding the telecommuting opportunities available to the
    Federal community, and

    marketing the availability of other GSA services that may enable the Agency to
    take advantage of business opportunities as a result of other agencies'
    participation in telecommuting initiatives.

In addition, assistance is needed in developing user rates for the regional
telecommuting centers that allow GSA to "break even" in establishing and
maintaining each of these locations. Mechanisms for billing these user fees are being
explored. The resulting methodes) should represent the easiest, most economical
manner that encourages the maximum use of the centers while requiring the least
amount of effort both on the part of GSA and the customer agencies.

In our March 11, 1997 report, we recommended that the Commissioner, PBS:

    Include the above-mentioned telecommuting functions in the program office.

    Ensure that regional offices are provided assistance in developing user rates for
    the regional telecommuting centers that allow the Agency to recover the direct
    and indirect costs of establishing and maintaining each of these locations, as well
    as easy billing mechanisms to charge the customer agencies.

The Commissioner concurred with the recommendations in our report. The audit is
still in the resolution process.




                                                            Office of Inspector General 15
                                       Reviews of GSA Programs



                                       Regional Fleet Maintenance Control Center
                                       The GSA Interagency Fleet Management System provides motor vehicle and related
                                       services to Federal customers through a network of Fleet Management Centers
                                       (FMCs), which are responsible for the assignment and utilization management of
                                       vehicles, and Maintenance Control Centers (MCCs) which assist customer operators
                                       in obtaining necessary vehicle repairs and maintenance services.

                                       In one region, GSA implemented a reinvention initiative to decentralize the vehicle
                                       maintenance and repair control functions from the Denver headquarters' MCC to
                                       FMCs in selected field locations. Starting in Casper, Wyoming, the FMC took over
                                       the MCC duties for the State of Wyoming. The initiative was then expanded to the
                                       Bismarck, North Dakota, and the Pierre, South Dakota, FMCs. Eventually, the
                                       initiative is planned to be expanded to all of the regions' FMCs and result in the
                                       elimination of the Denver MCC. The total regional maintenance and repair expenses
                                       are currently about $6 million annually.

                                       The OIG performed a review to determine if appropriate management controls over
                                       vehicle fleet maintenance and repairs continued to be in place during the region's
                                       reinvention initiative. Our review showed that appropriate management controls were
                                       in place to adequately ensure that maintenance and repairs were necessary and
                                       accomplished in a timely and cost-effective manner. The report did note that a
                                       regional bulletin which directs vehicle operators to contact the MCC to authorize
                                       preventive maintenance did not accurately describe regional policy, in that the region
                                       did not intend for vehicle operators to contact the MCC for routine, low cost
                                       preventive maintenance.

                                       Since we determined that corrective action was being taken through an advisory
                                       notice to customers and revision of the next Federal Property Management Regulation
                                       Bulletin to be issued, the February 6, 1997 report did not contain any
                                       recommendations.


                                       National Customer Service Center
                                       The GSA National Customer Service Center (NCSC), formerly called the
                                       Discrepancy Reports Center, is responsible for receiving, processing, and resolving
                                       three types of supply discrepancies reported by GSA customers worldwide: shipping,
                                       transportation, and billing. The NCSC also operates a toll-free telephone line to
                                       answer customer questions about GSA supplies and services.

                                       In response to a request from GSA management, the OIG conducted a best-practices
                                       review to provide management with advice and observations with which to improve
                                       the efficiency and effectiveness of NCSC operations. We focused on analyzing the
                                       NCSC methods for handling customer calls, and also on benchmarking the
                                       approaches and methods used by other similar industry experts to identify how private
                                       sector vendors and Government agencies provided quality customer service and
                                       resolved shipping discrepancies.

                                       Our advisory review identified several practices that the Agency should find helpful
                                       in expediting response service to customers and also to reduce the number of future



16 Semiannual Report To The Congress
Reviews of GSA Programs


discrepancies. Based on our analyses, when compared with the best practices of
private sector firms and other Government agencies, the NCSC role should be to
initiate immediate action to satisfy customer needs relative to shipment problems. In
addition, the NCSC should focus on distributing detailed discrepancy information to
those entities responsible for the shipping, transportation, or billing discrepancies.

Our report also suggested a need for some changes by the NCSC. The successful
quality customer service programs benchmarked during our review for timely and
responsive resolution of customer complaints or inquiries showed a number of
changes which could improve NCSC operations. These include:

    implementing the streamlined automated data systems currently under
    development for the NCSC to use in discrepancy research and resolution,

    restricting the NCSC operations to processing discrepancies (rather than
    processing both discrepancies and responding to general information questions)
    would help reduce the work volume of non-complaint type contacts to be
    answered, which generally interrupted and delayed the discrepancy resolution
    processes, and

    encouraging customers to use the telephone as the means for reporting
    discrepancies, so that the NCSC could more quickly assign and satisfy customer
    calls.

Finally, our best-practices review and benchmarking comparison indicated a
consensus that, if resolution of discrepancies is referred to the responsible entities, the
likely result will be further reductions in future discrepancies.

The January 10, 1997 report is advisory in nature and does not contain formal
recommendations.


General Management &Administrative Expenses
As highlighted in the past two Semiannual Reports to the Congress, the Agency
developed the Federal Operations Review Model (FORM) process, a multi-step
analysis to determine the most efficient and cost-effective means to deliver the GSA
major business line services. This analysis pointed out that General Management &
Administrative (GM&A) expenses are a major contributor to the high cost of
performing functions in-house as opposed to contracting out for services.

This period, the OIG started a review of the GM&A organizations to see if it could
aid any staff office in improving cost effectiveness and delivery of service. We
concluded that many of the GM&A organizations were already improving their
processes and identifying ways of reducing costs, and that additional audit work was
unwarranted. The impact of recent personnel reductions and overhead studies have
generated impetus for reduction plans and reorganization activities in each of the
organizations under GM&A.

We related this conclusion in our December 2, 1996 report to the Associate
Administrator, Office of Management Services and Human Resources, and to the


                                                               Office ofInspector General 17
                                       Reviews of GSA Programs


                                       CFO. We called to their attention that, although overhead study teams had
                                       recommended many constructive opportunities for staff office consolidations,
                                       management had not yet acted upon them at the time of our survey.

                                       Finally, at the request of the Director of the Office of Management Services, we
                                       agreed to take on a new assignment to assist that office in its efforts to restructure to
                                       better meet customer demands and reduce costs.

                                       The report is advisory in nature and does not contain formal recommendations.




18 Semiannual Report To The Congress
Emerging Issues and Concerns


  During the last 6-month period, two issues have developed that, we feel, warrant
  mention in this semiannual report. The first of these relates to an audit report we
  highlighted in the previous report, Sale of the U.S. Custom House to the City of
  Boston, and the actions taken by the OIG subsequent to the Agency's decision to not
  seek an opinion from the Department of Justice on the question of the authority of the
  GSA Administrator relating to the compromise of debt. Our second issue regards the
  PBS $680 million "rent shortfall" which recently has received a significant amount of
  attention from the Congress and the media.


  Sale of U.S. Custom House
  As highlighted in the last semiannual report, our audit of GSA's sale of the U.S.
  Custom House to the City of Boston (the City) raised concerns about the adequacy of
  GSA policies and management controls over the disposal of surplus real property.
  We recommended that GSA refine its policies and procedures for the sale of surplus
  property where credit is extended, and cautioned that GSA should not participate as a
  lender institution in the disposal of real property. Our report also recommended that,
  given that GSA may have exceeded its legal authority to compromise debts owed the
  United States when restructuring the City's debt, this was a reportable matter under
  the Federal Managers' Financial Integrity Act.

  GSA sold the historic building to the City as surplus property in 1987, and accepted a
  $9.9 million mortgage, on which the City defaulted in 1991. Three years later, GSA
  agreed to restructure the debt on terms more favorable to the City, and forgave
  $361,010 for penalty payments assessed on default of the original note. In January
  1996, GSA and the City agreed to settle the debt for a cash buyout of about
  $6 million, even though the City had made no principal payments on the loan.

  Our audit noted that the sale was a departure from the Agency's general policy of
  selling surplus real property for cash. GSA had assumed the role of creditor in order
  to accommodate the City, and as a result subsequently bore the administrative cost of
  the default and restructuring ofthe debt. We questioned GSA's waiver of the penalty
  payments, and its compromise of the original debt, pointing out that GSA did not
  comply with the requirements of the Federal Claims Collection Act, which limits an
  agency's right to compromise debts to $100,000.

  GSA management did not agree with the findings and recommendations presented in
  our report, maintaining that our conclusions were based on an incorrect interpretation
  of the statutory and regulatory framework governing the disposal of real property.
  Citing the Federal Property and Administrative Services Act of 1949, management
  contended that the GSA Administrator has complete authority to sell surplus real
  property on credit terms, and to administer and manage the credit as deemed to be in
  the best interest of the United States.

  The OIG considered the Agency's response in detail, but made no changes to the
  audit findings and recommendations as presented in the July 15, 1996 final audit
  report.

  As part of the Agency's resolution process under the Federal Managers' Financial
  Integrity Act (FMFIA) of 1982, this matter was presented to the Agency's


                                                              Office of Inspector General 19
                                       Emerging Issues and Concerns


                                         Management Control Oversight Council (MCOC). We raised our concern that the
                                         Agency's continued adherence to its views on the scope of the Administrator's
                                         compromise authority had repercussions for future credit transactions involving
                                         surplus real property, and was an issue that went beyond just the Custom House
                                         matter. The MCOC recommended that the advice of the Department of Justice be
                                         obtained on the question of the Administrator's compromise authority relating to the
                                         disposal of surplus real property. However, the Acting Administrator determined that
                                         the Agency itself would not seek an opinion from the Department of Justice. At that
                                         point, the OrG requested an opinion from the Department of Justice's Office of Legal
                                         Counsel (OLC), which declined the request on the grounds that it considered the
                                         matter to be an intra-agency dispute. The orG subsequently requested the assistance
                                         of the Attorney General, expressing its concern that OLC's declination to consider an
                                         rG's request for a legal interpretation raised the real possibility of frustrating
                                         Congressional intent in establishing independent Offices of Inspector General in the
                                         Executive Branch. The OIG expressed the view that sound public policy supports the
                                         proposition that, where an IG has raised a formal question regarding an agency's
                                         acting in excess of its authorities, mere disagreement by an agency head should not be
                                         sufficient to prohibit further inquiry.

                                         The OIG has also requested an advisory opinion on this matter from GAO, which, to
                                         date, has not rendered its opinion. OMB is also currently examining this issue.


                                         PBS Rent Shortfall
                                         In the FY 1998 budget submission, GSA disclosed that its forecast of rent
                                         revenue for FY 1996 and FY 1997 exceeded what the actual rent income wiII be by
                                         $680.5 million. For both years, Congress had authorized construction, repair and
                                         alteration, and related building operations expenditures from the Federal Buildings
                                         Fund (FBF) based on GSA's forecasts of rent revenue. Consequently, GSA could not
                                         fully fund all of the planned FY 1996 and FY 1997 projects that had been authorized
                                         by the Congress.

                                         The FBF was established in 1972 as a revolving fund to finance PBS activities.
                                         Customer agency rent payments are the primary source of income for the FBF, with
                                         some direct appropriations for new construction and major renovation projects.
                                         Although the FBF has a balance of about $4 billion, Congress limits the amount of
                                         this revenue that can be spent on authorized activities. GSA's overestimate of
                                         revenue resulted in projects being deferred. GSA has proposed to direct FY 1998
                                         funds to those projects previously authorized by Congress but deferred due to the
                                         FY 1996 and FY 1997 "shortfall."

                                         The Agency cited three factors that caused the problem:

                                         1.   In FY 1995, it lowered rents to prevailing commercial rates in 18 metropolitan
                                              areas - an average reduction of 6.6 percent. The FY ] 996 and FY 1997 budget
                                              estimates of rent revenue were not adjusted to reflect these lower rents.

                                         2.   It did not anticipate the negative impact on rent revenue as a result of Federal
                                              downsizing in FY 1996 and FY 1997. It stated that past downsizing efforts did
                                              not have an immediate impact on Federal agency space plans.


20 Semiannual Report To The Congress
Emerging Issues and Concerns


  3.   It used overly optimistic assumptions as to when new space would enter the
       inventory and begin generating income. Construction delays on some projects
       meant that the new buildings were not ready for occupancy at the time
       projected, and therefore these buildings did not generate the anticipated income.

  The OIG is working with the Agency on several projects that should produce more
  accurate rent revenue forecasting and collections. One OIG team is assessing the
  adequacy of the new PBS rent system which is planned to be implemented in the next
  year. We are also working on the PBS task force commissioned to find ways to more
  accurately forecast rental revenues. Meanwhile, two other OIG teams are conducting
  audits in the rent area: one to help improve the accuracy of space assignments, and
  the other aimed at insuring operating costs are reduced when changing circumstances
  should result in paying lower taxes or services costs.




                                                             Office of Inspector General 21
                                           Prevention Activities


                                       In addition to detecting problems in GSA operations, the OIG is responsible for
                                       initiating actions to prevent fraud, waste, and abuse and to promote economy and
                                       efficiency.

Significant Preaward Audits            The OIG's preaward audit program provides information to contracting officers for
                                       use in negotiating contracts. The pre-decisional, advisory nature of pre award audits
                                       distinguishes them from other audits. This program provides vital and current
                                       information to contracting officers, enabling them to significantly improve the
                                       Government's negotiating position and to realize millions of dollars in savings on
                                       negotiated contracts. This period, the OIG performed preaward audits of 64 contracts
                                       with an estimated value of $197.3 million. The audit reports contained over
                                       $35.6 million in financial recommendations.

                                       This period, two of the more significant MAS contracts we audited had projected
                                       Governmentwide sales totaling $93 million. Based on the audit findings, we
                                       recommended that $16.5 million in funds be put to better use. The OIG evaluated
                                       discount schedule and marketing data submitted in response to the GSA solicitations
                                       for the purchase of office systems furniture. The audits disclosed common problems
                                       in the proposals. Commercial customers received better pricing than offered to GSA.
                                       The full extent of higher discounts granted to other customers was not disclosed, and
                                       an adequate justification for not offering comparable discounts to GSA was not
                                       provided, even though GSA buys in larger sales volumes.

                                       Other significant contract audits during this period included claims for delays and
                                       disruptions allegedly caused by the Government during the renovation of Federal
                                       buildings. Three of the more significant audits contained proposed prices totaling
                                       $13.3 million, and recommended adjustments of $8.2 million. In an audit of a claim
                                       for increased costs due to Government-caused delays in a building renovation, we
                                       advised the contracting officer that an electrical subcontractor submitted overstated
                                       claims for labor and overhead costs. In an audit of another claim, we advised the
                                       contracting officer that the contractor overstated its costs for extended home office
                                       overhead, claim preparation, and other direct costs. Finally, in an audit of a claim for
                                       increased costs resulting from the presence of lead during renovation efforts, we
                                       advised the contracting officer that a steel and metal subcontractor had claimed costs
                                       that were overstated or did not meet Federal guidelines, and was not able to provide
                                       sufficient documentation to substantiate other costs.

Federal Managers' Financial            The Federal Managers' Financial Integrity Act, Section 2, requires GSA management
                                       to provide assurance to the President and the Congress that Agency resources are
Integrity Act Review                   protected from fraud, waste, mismanagement, and misappropriation.

                                       We advised management that one area should be reported as a material control
                                       weakness. We believe GSA exceeded its legal authority when compromising a debt
                                       of over $100,000 for the sale of the U.S. Custom House to the City of Boston,
                                       Massachusetts. However, the Office of General Counsel is of the opinion that GSA
                                       was within its statutory authorities on all aspects of disposing of this property and
                                       renegotiating the terms of the debt. The Agency's position conforms to the advice of
                                       its General Counsel. We have sought the advice of both GAO and the Attorney
                                       General.




22 Semiannual Report To The Congress
                                 Prevention Activities


                             We concur with management's decision to raise the rating for the MAS program from
                             high risk to material weakness. The MAS contracts program should address several
                             problems which have been identified by Agency management, GAO, and the OIG.
                             Information received from vendors for evaluating pricing offered to the Government
                             is not always accurate, current, and complete; the ability of contracting officials to
                             award the most favorable prices for the Government may be adversely impacted by
                             the heavy MAS program workload; and agencies that use the MAS program may not
                             always comply with applicable ordering procedures. Nothing else came to our
                             attention during the reviews that would lead the OIG to conclude that reporting
                             officials had other than reasonable and reliable bases for their assurance statements.

                             We also reviewed the GSA efforts in carrying out Section 4 of the Act by evaluating
                             the FY 1996 assurance statement concerning financial management systems. We
                             advised management that the statement was complete and adequate.

Integrity Awareness          The OIG presents Integrity Awareness Briefings nationwide to educate GSA
                             employees on their responsibilities for the prevention of fraud and abuse, and to
                             reinforce employees' roles in helping to ensure the integrity of Agency operations.

                             This period we presented 8 briefings attended by 194 regional employees. These
                             briefings explain the statutory mission of the OIG and the methods available for
                             reporting suspected instances of wrongdoing. In addition, through case studies and
                             slides, the briefings make GSA employees aware of actual instances of fraud in GSA
                             and other Federal agencies and thus help to prevent their recurrence.

Hotline                      The OIG Hotline provides an avenue for concerned employees and other concerned
                             citizens to report suspected wrongdoing. Hotline posters located in GSA-controlled
                             buildings, as well as brochures, encourage employees to use the Hotline.

                             During this reporting period, we received 2,159 Hotline calls and letters. Of these,
                             80 complaints warranted further GSA action, 17 warranted other Agency action, and
                             2,062 did not warrant action.

Implementation Reviews       The OIG performs independent reviews of implementation actions, on a selected
                             basis, to ensure that management's corrective actions in response to OIG
                             recommendations are being accomplished according to established milestones. This
                             period, the OIG performed an implementation review in the Federal Supply Vehicle
                             Sales Support Program and found that the recommendations had been fully
                             implemented.

Financial Statements Audit   The Chief Financial Officers Act of 1990 requires the OIG to conduct or arrange for
                             an annual audit of the GSA consolidated financial statements. The Act also requires a
                             report on the GSA system of internal accounting controls and compliance with laws
                             and regulations. An independent public accounting firm performed this audit for
                             FY 1995 and FY 1996, with oversight and guidance from the OIG. In the audit report
                             dated December 17, 1996, GSA received unqualified opinions on its financial
                             statements and on its system of internal accounting controls. The report on the
                             internal control structure over financial reporting for the consolidated financial
                             statements described one material weakness concerning the recording of assets and
                             equity. Several conditions affecting other programs or operations were identified


                                                                                        Office of Inspector General 23
                                           Prevention Activities


                                       where steps should be taken to strengthen internal controls. None of these was
                                       considered material.

                                       In addition, the 010 completed limited reviews of the internal controls for two
                                       program performance measures, assessing reasonableness of the control structure to
                                       generate reliable performance information as required by the Office of Management
                                       and Budget Bulletin 93-06. The preliminary assessment showed that the control risk
                                       over management's systems and processes for providing data supporting one of these
                                       measures is low. However, a control risk assessment of the other measure was not
                                       performed because the internal controls over the reported crime statistics and
                                       population counts were not sufficient to permit preparation of reliable and complete
                                       performance information.




24 Semiannual Report To The Congress
Review of Legislation and Regulations


      The Inspector General Act of 1978 requires the DIG to review existing and proposed
      legislation and regulations to determine their effect on the economy and efficiency of
      the Agency's programs and operations and on the prevention and detection offraud
      and mismanagement.

      During this period, the OIG reviewed 102 legislative matters and 31 proposed
      regulations and directives. The OIG provided significant comments on the following
      legislative item:

          S. 314, H.R. 716, the Freedom from Government Competition Acts. Similar to a
          measure, S. 1724, introduced in the last Congress, these bills generally would
          require the contracting out of Government goods and services unless the Federal
          Government is determined to be the best value source. We agreed generally that
          functions currently performed by the Government should be transferred to
          private sector contractors when it makes economic and policy sense to do so.
          However, we raised concerns that the best value methodology set forth in the
          bills does not include consideration of factors such as accumulated Government
          expertise related to a particular service. We noted that, in many instances, the
          Government may be the best value source for a service or product. This may be
          especially true when oversight and policy functions, still necessarily performed
          by the Government, are factored in. We pointed out that the Government
          necessarily has more diverse and varied agendas than the private sector, which is
          primarily concerned with maximizing its profits. We expressed our concern that
          the bills do not consider this basic concept.

      In addition, the OIG provided comments on the following regulatory item:

          FSS Acquisition Letter on Variable Contract Periods. We principally questioned
          the proposed elimination of the "bake off' requirements under which the Agency
          determines the award of identical items offered to various vendors in a MAS
          solicitation. We pointed out that controls over MAS contracts are necessary to
          ensure that the Government receives fair and reasonable pricing. Open
          competition is one way to determine fair and reasonable pricing; negotiation
          supported by price analysis and audit is another. We pointed out that if, as is
          currently proposed, postaward audit rights are substantially curtailed, a
          significant Government control for assuring price reasonableness in the MAS
          program is eliminated. If that happens, expanding the bake off concept and using
          some single awards and limited multiple awards may be the Government's only
          viable means of establishing fair and reasonable prices for the MAS program.
          We expressed our belief that open competition should always be the
          Government's principal method of awarding contracts; it is the most fundamental
          and fair way of determining price reasonableness on Government contracts.
          Accordingly, we recommended that the use of bake offs and single award
          schedules, which utilize open competition, should be used and expanded where
          possible rather than eliminated as suggested.




                                                                 Officc of Inspector General 25
                        Statistical Summary of DIG Accomplishments



                                       Audit Reports Issued
                                       The OIG issued 160 audit reports. The 160 reports contained financial
                                       recommendations totaling $65,785,551, including $35,629,450 in recommendations
                                       that funds be put to better use and $30,156,101 in questioned costs. Due to GSA's
                                       mission of negotiating contracts for Governmentwide supplies and services, most of
                                       the recommended savings that funds be put to better use would be applicable to other
                                       Federal agencies.


                                       Management Decisions on Audit Reports
                                       Table 1 summarizes the status of the universe of audits requiring management
                                       decisions during this period, as well as the status of those audits as of March 31, 1997.
                                       Eighteen repOlts more than 6 months old were awaiting management decisions as
                                       of March 31, 1997; all of them were preaward audits which are not subject to the
                                       6 month management decision requirement. Table 1 does not include 23 reports
                                       excluded from the management decision process because they pertain to ongoing
                                       investigations.




                               Table 1. Management Decisions on OIG Audits
                                                                                Reports with                   Total
                                                               No. of             Financial                  Financial
                                                              Reports         Recommendations            Recommendations

  For which no management decision
  had been made as of 10/1/96
      Less than 6 months old                                      65                    45                    $179,149,440
      More than 6 months old                                      21                    19                       7,048,776
  Reports issued this period                                    160
                                                                  ---
                                                                                        92                     65,785,551
                                                                                                                  -------------   ----------


  TOTAL                                                         246                    156                   $251,983,767
  For which a management decision
  was made during the reporting
  period
      Issued prior periods                                        68                    48                    $181,487,609
      Issued current period                                      103                    49                      49,722,063
  TOTAL                                                         171                     97                   $231,209,672
  For which no management decision
  had been made as of 3/31/97
      Less than 6 months old                                      57                    43                    $ 16,063,488
      More than 6 months old                                      18                    16                       4,7l0,607
  TOTAL                                                           75                    59                    $ 20,774,095




26 Semiannual Report To The Congress
                      Statistical Summary of DIG Accomplishments



                                       Management Decisions on Audit Reports
                                       With Financial Recommendations
                                       Tables 2 and 3 present the audits identified in Table 1 as containing financial
                                       recommendations by category (funds to be put to better use or questioned costs),




                        Table 2. Management Decisions on OIG Audits with
                        Recommendations that Funds be Put to Better Use
                                                                         No. of                          Financial
                                                                        Reports                      Recommendations
For which no management decision had
been made as of 10/1/96
    Less than 6 months old                                                  34                          $173,640,998
    More than 6 months old                                                  19                               7,048,776
Reports issued this period                                                  52                              35,629,450
TOTAL                                                                      105                          $216,319,224
For which a management decision was
made during the reporting period
    Recommendations agreed to by
    management based on proposed
    • management action                                                                                 $201,683,014
    • legislative action
    Recommendations not agreed to
    by management                                                                                        _ _ ~Q,555
TOTAL                                                                       61                          $201,693,569
For which no management decision had
been made as of 3/31/97
    Less than 6 months old                                                  28                          $    9,915,048
    More than 6 months old                                                  16                               4,710,607
TOTAL                                                                       44                          $ 14,625,655




                                                                                                  Office of Inspector General 27
                        Statistical Summary of DIG Accomplishments



                                   Table 3. Management Decisions on OIG
                                        Audits with Questioned Costs
                                                                No. of                  Questioned       Unsupported
                                                               Reports                    Costs             Costs
                                                             -""~-""--"-~""-----"--""----"----"""---




  For which no management decision
  had been made as of 10/1/96
      Less than 6 months old                                       11                  $ 5,508,442         $-
      More than 6 months old                                        o                            o
  Reports issued this period                                       40                   30,156,101
  TOTAL                                                            51                  $35,664,543         $-
  For which a management decision
  was made during the reporting
  period
      Disallowed costs                                                                 $20,199,538   *     $-
      Costs not disallowed                                                               9,435,421         $-
  TOTAL                                                            36                  $29,634,959**       $-
  For which no management decision
  had been made as of 3/31/97
      Less than 6 months old                                       15                  $ 6,148,440         $-
      More than 6 months old                                        o                            o
  TOTAL                                                            15                  $ 6,148,440         $-
  * $2,482,744 of this amount was recovered in civil settlements, as reported in Table 5.
  ** Includes $118,856 that management decided to seek that exceeded recommended amounts.




28 Semiannual Report To The Congress
    Statistical Summary of DIG Accomplishments



                     Investigative Workload
                     The OIG opened 154 investigative cases and closed 142 cases during this period. In
                     addition, the OIG received and evaluated 86 complaints and allegations from sources
                     other than the Hotline that involved GSA employees and programs. Based upon our
                     analyses of these complaints and allegations, OIG investigations were not warranted.


                     Referrals
                     The OIG makes criminal referrals to the Department of Justice or other authorities for
                     prosecutive consideration and civil referrals to the Civil Division of the Department of
                     Justice or U.S. Attorneys for litigative consideration. The OIG also makes administrative
                     referrals to GSA officials on certain cases disclosing wrongdoing on the part of GSA
                     employees, contractors, or private individuals doing business with the Government.



                   Table 4. Summary of OIG Referrals

Type of Referral                               Cases                                 Subjects
Criminal                                         19                                       40
Civil                                              5                                       6
Administrative                                   88                                     185
TOTAL                                           112                                     231


                     In addition, the OIG made 14 referrals to other Federal activities for further
                     investigation or other action and 75 referrals to GSA officials for informational
                     purposes only.


                     Actions on OIG Referrals
                     Based on these and prior referrals, 14 cases (33 subjects) were accepted for criminal
                     prosecution and 4 cases (5 subjects) were accepted for civil litigation. Criminal cases
                     originating from OIG referrals resulted in 18 indictments/informations and
                     15 successful prosecutions. OIG civil referrals resulted in 4 cases being accepted
                     for civil action and 9 case settlements. Based on OIG administrative referrals,
                     management debarred 21 contractors, suspended 26 contractors, and took
                     5 personnel actions against employees.




                                                                                  Office of Inspector General 29
                        Statistical Summary of DIG Accomplishments



                                         Monetary Results
                                         Table 5 presents the amounts of fines, penalties, settlements, judgments, and
                                         restitutions payable to the U.S. Government as a result of criminal and civil actions
                                         arising from OIG referrals.

                                         In addition, the OIG identified for recovery $684,827 in money and/or property
                                         during the course of its investigations.



                                    Table 5. Criminal and Civil Recoveries

                                                               Criminal                                    Civil
              Fines and Penalties                            $ 132,281                               $
              Settlements or Judgments                                                                   3,406,689*
              Restitutions                                    1,562,785
              TOTAL                                          $1,695,066                              $3,406,689

  * This amount includes $2,482,744 reportable pursuant to section 5(a)(8) of the Inspector General Act as management
  decisions to disallow costs. See Table 3.




30 Semiannual Report To The Congress
APPENDICES
                     Appendix /- Significant Audits From Prior Reports


Under the Agency audit management decision process, the           The remaining recommendation involves issuing a policy
GSA Office of Management Services and Human Resources,            statement on the use of licensed software and requiring each
Office of Management Services, Administrative Policy and          employee to acknowledge the policy. The aytion plan for this
Information Management Division, is responsible for tracking      recommendation is currently under review by the responsible
implementation of audit recommendations after a management        program office.
decision has been reached. That office furnished the following
status information.
                                                                  Validating Open Obligations
Eighteen audits highlighted in prior Reports to the Congress      Period First Reported: April 1, 1996 to September 30, 1996
have not yet been fully implemented; all are being                The review advised management of opportunities to streamline
implemented in accordance with currently established              the validation process of open obligations. The report
milestones.                                                       contained nine recommendations; six have been implemented.

Background Checks on Contractor Personnel                         The recommendations involve revising the standard operating
                                                                  procedures, establishing a lump-sum tax accrual account, and
Period First Reported: April 1, 1996 to September 30, 1996
                                                                  establishing accruals that closely match tax payments. They
The review focused on the GSA practices over background           are scheduled for completion between April 15, 1997 and
checks on contractor personnel. The report contained seven        May 15, 1997.
recommendations; two have been implemented.

The recommendations involve establishing time frames and          Purchase of Telecommunications Services
procedures, processing background checks through the GSA          Period First Reported: October 1, 1995 to March 31, 1996
system, determining if a change in policy is needed for
                                                                  The review advised management of opportunities to better
employees not currently required to have checks, and ensuring
                                                                  serve telecommunications customers. The report contained six
that contractor employees in delegated buildings have checks
                                                                  recommendations; five have been implemented.
performed according to GSA policy. They are scheduled for
completion by August 15, 1997.
                                                                  The remaining recommendation involves reviewing both the
                                                                  Purchase of Telecommunications Services and MAS programs
PBS Information Systems Strategy                                  to determine whether the best interests of the customer are
                                                                  served by continuing each. It is scheduled for completion by
Period First Reported: April 1, 1996 to September 30, 1996
                                                                  October 15, 1997.
The review identified the importance of defining, planning,
and coordinating the procurement of new information systems.
The report contained two recommendations; one has been            Stock Program Management
implemented.                                                      Information System
The remaining recommendation requires ensuring that the           Period First Reported: October 1, 1995 to March 31, 1996
GSA pilot systems and planned software initiative are             The review identified opportunities for improvement in the
technically compatible and are not duplicative. It is scheduled   accuracy and reliability of information provided to stock
for completion by January 15, 1998.                               program managers.         The report contained four
                                                                  recommendations; one has been implemented.
Managing Software Licenses
                                                                  The recommendations include improvements in the accuracy
Period First Reported: April J, 1996 to September 30, 1996        and reliability of data, the evaluation of computer programs,
The review focused on the management of licensed software.        and the continued development of an information system.
The report contained two recommendations; one has been            They are scheduled for completion hy various dates hetween
implemented.                                                      May 15, 1997 and November 15,1997.




                                                                                                   Office of Inspector General 33
                     Appendix I - Significant Audits From Prior Reports



Background Checks of                                              Federal Telecommunications Service -
Child Care Center Employees                                       Verification of Billings
Period First Reported: October 1, 1995 to March 31, 1996          Period First Reported: October 1, 1995 to March 31, 1996
The review focused on the GSA practices over criminal history     The review focused on the verification of usage and related
background checks for child care center employees. The            charges. The report contained three recommendations; one has
report contained five recommendations; none have been             been implemented.
implemented.
                                                                  One recommendation includes the implementation of draft
The recommendations include promulgating policies and             regulations for performing verifications of the call detail
guidelines covering the clearance process and ensuring            report. It is scheduled for completion by July 15, 1997.
compliance with Public Law 101-647. They are scheduled for        Another recommendation requires revision to the draft
completion by April 9, 1997.                                      regulations to recognize shared responsibility among GSA
                                                                  managers for verifying the validity and purpose of long
                                                                  distance calls. It is to be completed by April 15, 1997.
Aircraft Management
Period First Reported: October 1, 1995 to March 31,1996           Construction Projects
The review identified opportunities for improvement in the        Period First Reported: April 1, 1995 to September 30, 1995
GSA program for assisting civilian agencies with the
                                                                  The review identified opportunities for improvement in the
management and cost effectiveness of their aircraft operations.
                                                                  bidding and contracting practices of major GSA construction
The report contained five recommendations; none have been
                                                                  projects. The report contained eight recommendations; seven
implemented.
                                                                  have been implemented.

Two of the recommendations involve obtaining the necessary        The remaining recommendation involves an evaluation of the
resources to accomplish program initiatives. They are             method used to establish rent for special purpose space and is
scheduled for completion by April 15, 1997. Another               scheduled for completion by October 15, 1997.
recommendation involves the development of a logistics
system; it is scheduled for completion by November 15, 1997.
One recommendation concerns the identification of aircraft        GSA's Fine Arts Program
data necessary for making informed decisions and is scheduled     Period First Reported: October 1, 1994 to March 31, 1995
for completion by November 15, 1997. The final                    The review focused on GSA's oversight of fine art located in
recommendation consists of ensuring the reliance of data. It is   Federal and non-Federal institutions. The report contained five
scheduled for completion by April 15, 1997.                       recommendations; four have been implemented.

Value Engineering                                                 The remaining recommendation involves issuing policy for the
                                                                  utilization of fine arts in Federally-controlled space and its
Period First Reported: October 1, 1995 to March 31,1996           acceptance and disposal. It is scheduled for completion by
The review identified opportunities for more effective use of     May 15, 1997.
value engineering in GSA. The report contained one
recommendation; it has not yet been implemented.                  Real Estate Management
The recommendation involves the GSA Office of Acquisition         Period First Report: April 1, 1994 to September 30, 1994
Policy assuming a leadership role in GSA's use of value           The review found that repair and alteration projects in one
engineering. It is schcduled for completion by April 15, 1997.    region could be more comprehensively planned and databases




34 Semiannual Report To The Congress
                    Appendix /- Significant Audits From Prior Reports


more accurately maintained. The report contained ten             between two Federal Telecommunications Service contractors.
recommendations; nine have been implemented.                     The report contained two recommendations; one has been
                                                                 implemented.
The one remaining recommendation, involving the validation
of work items listed in the database, is scheduled for
                                                                 The remaining recommendation involves the Agency's
completion by September 15, 1997.
                                                                 determination of its future role in contractor revenue allocation
                                                                 and indicating it in future proposals. Completion has been
Maintenance Control Center Operations                            revised and is now scheduled by April 15, 1997.
Period First Reported: April 1, 1994 to September 30, 1994
The review identified opportunities for improvement in the       Employee Benefit Programs
processing of invoices and the management of maintenance
and repair data. The report contained five recommendations;      Period First Reported: October 1, 1992 to March 31,1993
two have been implemented.
                                                                 This review found that the processing of health benefit
                                                                 insurance transactions needed improvement. The report
One of the remaining recommendations requires establishing
alternative payment procedures and is due for implementation     contained two recommendations; one has been implemented.
by April 15, 1997. Another recommendation involves
transferring service information from customer agencies and is   The remaining recommendation suggested that a cost-benefit
scheduled for implementation by April 15, 1997. The final        determination be made on whether to recover health benefit
recommendation involves streamlining the operational             insurance premium contributions for prior years and to take
structure and is scheduled for completion by April 15, 1997.     appropriate action based on that determination. While the
                                                                 cost-benefit decision has been made, the recommendation
Federal Protective Service                                       remains open until all recovery actions are completed.
Period First Reported: October Z, 1993 to March 31,1994
The review found that GSA needed to strengthen its control       Contract Workload Management
over firearms and improve internal security. The report
contained 14 recommendations; 13 have been implemented.          Period First Reported: April 1, 1992 to September 30, 1992
                                                                 This review revealed the need to develop a strategy for
The remaining recommendation involves making                     addressing procurement workload concerns. The report
improvements to alarm systems. It is scheduled for completion
                                                                 contained one recommendation; it has not yet been
by April 15, 1997.
                                                                 implemented.

Business Allocation                                              This recommendation involves establishing a working group to
Period First Report: October 1, 1993 to March 31, 1994           develop a system for addressing identified issues and to give
The review focused on the GSA administration of the              attention to the MAS program concerns. It is scheduled for
60 percent and 40 percent anticipated business allocation        completion by April 15, 1997.




                                                                                                    Office of Inspector General 35
                                  Appendix 1/- Audit Report Register

                                                                                                       Financial
                                                                                                   Recommendations
                                                                                              - Funds~To---Questioned -     ~
Date of       Audit                                                                            Be Put To    (Unsupported)
Report        Number                                   Title                                   Better Use       Costs

(Note: Because some audits pertain to contracting award or actions which have not yet been
completed, the financial recommendations to these reports are not listed in this Appendix.)

PBS Management Consulting Reviews
11107/96      A61816         Management Assistance Review on Janitorial Contract
                             Pricing in the Heartland Region

02/26/97      A70616         Management Assistance Review on the Development of an
                             Allocation System for Rental Rates for FPS' Services
                             (Region 2)

03/14/97      A72102         Management Assistance Review of Savings From Region 7
                             Public Buildings Service Work at Home Program


FSS Management Consulting Reviews
11119/96      A63316         Management Assistance Review on theControls Over the
                             Federal Supply Service's Industrial Funding Fee

12/20/96      A61552         Management Assistance Review of IFMS Customer Spending
                             Authorization for Maintenance and Repairs

02/28/97      A71209         Management Assistance Review, Wholesale Distribution
                             Centers, Order and Shipment Processing System

02/28/97      A71210         Management Assistance Review, Palmetto, Georgia
                             Wholesale Distribution Center, Order and Shipment
                             Processing System


ITS Management Consulting Review
12/11196      A60349         Management Assistance Review Alternatives for the Federal
                             Computer Acquisition Center


Other Management Consulting Reviews
12/02/96      A60945         Management Assistance Review, I.M.P.A.C. Visa Card
                             Usage, Mid-Atlantic Region

03/14/97      A70904         Management Assistance Review for the Office of
                             Management Services


PBS Internal Audits
10/11/96      A61532         Review of Northern Ohio Property Management Center,
                             Cleveland, Ohio, Great Lakes Region



36 Semiannual Report To The Congress
                          Appendix /1- Audit Report Register

                                                                                               Financial
                                                                                          Recommendations
                                                                                     ,~~~~".-- -"    ... -.---.--.----
                                                                                                    ..   --~     --.-~




                                                                                     Funds To            Questioned
Date of    Audit                                                                     Be Put To       (Unsupported)
Report     Number                               Title                                Better Use             Costs

10/31/96   A61548     Audit of the Use of Funds for Larger Construction Contracts,
                      PBS Great Lakes Region

12/12/96   A53026     Audit of Service Contracting

01/13/97   A62493     Audit of Procurement Actions, Nevada Field Office, Pacific
                      Rim Region

01/13/97   A62503     Audit of Procurement Actions, Central California Field                                              $8,829
                      Office, Pacific Rim Region

01/15/97   A63020     Postaward Lease Review: National Place, 1331 Pennsylvania
                      Avenue, NW, Washington, DC, Lease GS-llB-40085

02/04/97   A61537     Audit of Postaward Lease Administration: U.S. Bankruptcy
                      Court, Columbus, Ohio, Lease Number GS-05B-1561O

02/19/97   A61551     Audit of Progress Payment Procedures, Great Lakes Region

03/11/97   A60936     Audit of the General Services Administration's Regional
                      Telecommuting Center Initiatives

03/14/97   A63031     Audit of the Federal Triangle Property Management Center,
                      Washington, DC

03/18/97   A72423     Audit of Operating Cost Escalation, Lease Number                                                   $77,460
                      GS-09B-60808: 44 East Broadway, Tucson, Arizona, Pacific
                      Rim Region

03/26/97   A61247     Review of the Public Buildings Service Debarment Program

03/28/97   A71503     Review of GSA's Affirmative Procurement Program


PBS Contract Audits
10/02/96   A60347     Audit of Delay Claim: Suffolk Construction Company, Inc.,
                      Contract Number GS-01P-90-BZC-0035

10/03/96   A60350     Preaward Audit of Management and Inspection Services
                      Contract: Gilbane Building Company, Solicitation Number
                      GS-OIP-96-BZC-0004, Option II

10/03/96   A61557     Preaward Audit of Supplemental Architect and Engineering
                      Services Contract: Roger Johnson - Richard Smith Architects
                      Inc., Proposed Contract Number GS-05P-96-GAD-0166




                                                                                                         Office of Inspector General 37
                                 Appendix /1- Audit Report Register

                                                                                                     Financial
                                                                                              ~
                                                                                                Recommendations--_._-
                                                                                                  -,------- --- - - - - - -- - -

                                                                                           Funds To          Questioned
Date of       Audit                                                                        Be Put To       (Unsupported)
Report        Number                                  Title                                Better Use              Costs


10/04/96      A60346        Postaward Audit of Change Order Costs: Suffolk                                                         $238,491
                            Construction Company, Inc., Contract Number
                            GS-O 1P-90-BZC-0035

10/08/96      A61846        Preaward Audit of Cost or Pricing Data: Goodwill Industries
                            of Central Iowa, Proposed Contract Number
                            GS06P95GXCO 164

10/15/96      A63647        Preaward Audit of Change Order Proposal: Mahogany, Inc., a
                            Subcontractor of Turner Construction Company, Contract
                            Number GS-l1P91AQC0060

10/24/96      A63649        Preaward Audit of Architect and Engineering Services
                            Contract: Alphatec, P. c., Solicitation Number
                            GSllP96EGDOOOI

10/25/96      A61255        Preaward Audit of Small Business Administration Sea)
                            Pricing Proposal: Klean Rite Services, Inc., Solicitation
                            Number GS-04P-96-CXC-0005

10/25/96      A62501        Preaward Audit of a Claim for Increased Costs:
                            Conca Cement Company, Subcontractor to The
                            George Hyman Construction Company, Contract Number
                            GS-09P-93-KTC-0034

10/28/96      A62510        Preaward Audit of Cost or Pricing Data: ADT Security
                            Systems, Solicitation Number GS-09P-96-KYC-0021

10/29/96      A60669        Pre award Audit of Cost or Pricing Data Review of 1992-1993
                            Liability Insurance Costs: The Port Authority of New York
                            and New Jersey, Lease Number GS-02B-15370

10/31/96      A70607        Preaward Audit of Architect and Engineering Services
                            Contract: Atkinson Koven Feinberg Engineers LLP,
                            Solicitation Number GS-02P-96-DTC-0047(N)

11104/96      A62509        Preaward Audit of Cost or Pricing Data: Signet Testing Labs,
                            Contract Number GS-09P-93-KTC-0005

11/06/96      A61562        Preaward Audit of Architect and Engineering Services
                            Contract: Wiss, Janney, Elstner Associates, Inc., Contract
                            Number GS-05P-95-GBC-0005

11/07/96      A63641        Audit of Claim for Increased Cost: John J. Kirlin, Inc.,
                            Contract Number GS-IIP91MKCOI96"U"




38 Semiannual Report To The Congress
                        Appendix II - Audit Report Register

                                                                                             Financial
                                                                                        Recommendations
                                                                                   ------ -----                     ---

                                                                                   Funds To          Questioned
Date of    Audit                                                                   Be Put To       (Unsupported)
Report     Number                            Title                                 Better Use          Costs

11112/96   A62489   Preaward Audit of a Claim for Increased Costs:
                    Alexander Manufacturing, Inc., Subcontractor to The
                    George Hyman Construction Company, Contract Number
                    GS-09P-93-KTC-0034

11120/96   A60670   Preaward Audit of a Claim: Falcon Associates, Inc., Contract
                    Number GS-05P-91-GBC-0108

11122/96   A70610   Preaward Audit of Architect and Engineering Services
                    Contract: Gilsanz, Murray, Steficek, LLP, Solicitation
                    Number GS-02P-96-DTC-0047

11122/96   A70615   Preaward Audit of Architect and Engineering
                    Services Contract: Direct Labor Escalation, Atkinson
                    Koven Feinberg Engineers LLP, Solicitation Number
                    GS-02P-96-DTC-0047(N)

11/27/96   A62487   Preaward Audit of a Claim for Increased Costs: The
                    George Hyman Construction Company, Contract No.
                    GS-09P-93-KTC-0034

11127/96   A70608   Preaward Audit of Architect and Engineering Services
                    Contract: Perkins Eastman Architects PC, Solicitation
                    Number GS-02P-96-DTC-0047(N)

11127/96   A70609   Preaward Audit of Architect and Engineering
                    Services Contract: V.J. Associates, Solicitation Number
                    GS-02P-96-DTC-0047

12/02/96   A71202   Preaward Audit of Small Business Administration 8(A)
                    Pricing Proposal: I.C.F. Builders and Consultants, Inc.,
                    Solicitation Number GS-04P-96cCXC-0016

12111196   A61863   Audit of Proposed Overhead and Insurance Rates:
                    Morse Diesel International, Inc., Contract Number
                    GS06P95GZC050 1

12/13/96   A70620   Limited Review of the Dimension Stone Subcontract Bids on
                    the New US Courthouse and Federal Building in Islip, New
                    York: Turner Construction Company, Contract Number
                    GS-02P-95-DTC-OO 14(N)

12/16/96   A60338   Report on Audit of Claim for Increased Costs:
                    Clark Construction Group, Inc., Contract Number
                    GS02P94CLJC0039




                                                                                              Office of Inspector General 39
                                 Appendix /1- Audit Report Register

                                                                                                        Financial
                                                                                                   Recommendations
                                                                                             ~-~------."-. __ ..-
                                                                                                               ------~   --~-.--




                                                                                              Funds To            Questioned
Date of       Audit                                                                           Be Put To         (Unsupported)
Report        Number                                  Title                                   Better Use            Costs


12/17/96      A63646        Preaward Audit of Termination Claim: W.M. Schlosser Co.,
                            Inc., Contract Number GS llP95AQC0002

12/18/96      A61858        Postaward Audit of Incurred Costs: Challenge Unlimited,
                            Inc., Contract Number GS06P95GXC0092

12/31196      A62497        Preaward Audit of a Claim for Increased Costs:
                            HAP Construction, Inc., Subcontractor to The George
                            Hyman Construction Company, Contract Number
                            GS-09P-93-KTC-0034

12/31196      A72404        Preaward Audit of a Claim for Increased Costs:
                            Rosendin Electric, Inc., Subcontractor to The George
                            Hyman Construction Company, Contract Number
                            GS-09P-93-KTC-0034

12/31/96      A72421        Preaward Audit of a Claim for Increased Costs:
                            Engineered Glass Walls, Inc., Subcontractor to The
                            George Hyman Construction Company, Contract Number
                            GS-09P-93-KTC-0034

12/31196      A73604        Preaward Audit of Termination Claim: Moody/Ebony Joint
                            Venture, Contract Number GS-04P94EXC0062

01106/97      A73605        Preaward Audit of Sale Source Contract: CDA Incorporated,
                            Solicitation Number GS-04P-96-EYC-0183

01/24/97      A70619        Limited Postaward Review of Small Business Subcontracting
                            Plan: Turner Construction Company, Contract Number
                            GS-02P-95-DTC-0014(N)

01124/97      A72431        Audit of Real Estate Tax Adjustments: Pacific Corporate                               $672,721
                            Towers, LLC, Lease Number GS-09B-85185, Calendar Years
                            1987 Through 1995

01/27/97      A73608        Audit of Claim for Increased Cost: Moody/Ebony, Joint
                            Venture, Contract Number GS-04P94EXC0062

01130/97      A72106        Limited Postaward Audit of Concession Contract: Hernandez
                            Enterprises, Inc., Contract Number GS-07-P-93-HTC-0030

02/05/97      A73602        Audit of Claim for Increased Cost: United Sheet Metal, Inc., a
                            Subcontractor to John J. Kirlin, Inc., Contract Number
                            GS-11P91MKC-0196"U"

02/06/97      A70622        Preaward Audit of Change Order Proposal: Turner Construction
                            Company, Contract Number GS-02P-95-DTC-0014


40 Semiannual Report To The Congress
                        Appendix 11- Audit Report Register

                                                                                               Financial
                                                                                          Recommendations
                                                                                     Funds To          Questioned
Date of    Audit                                                                     Be Put To       (Unsupported)
Report     Number                             Title                                  Better Use          Costs

02/20/97   A70626   Preaward Audit of Architect and Engineering Services
                    Contract: Syska and Hennessy, Inc., Contract Number
                    GS-02P-92-CUC-0029(N)

02/20/97   A71520   Preaward Audit of Supplemental Architect and Engineering
                    Services Contract: Globetrotters Engineering Corporation,
                    Contract Number GS-05P-96-GAD-0193

02/26/97   A70623   Preaward Audit of Architect and Engineering Services
                    Contract: Richard Meier & Partners, Contract Number
                    GS-02P-92-CUC-0029(N)

02/27/97   A71205   Preaward Audit of Small Business Administration 8(A)
                    Pricing Proposal: Paragon Systems, Inc., Solicitation Number
                    GS-04P-96-EYC-0117

02/27/97   A71206   Preaward Audit of Small Business Administration 8(A)
                    Pricing Proposal: Paragon Systems, Inc., Solicitation Number
                    GS-04P-96-EYC-0128

03/12/97   A70305   Preaward Audit of Architect and Engineering Services Contract:
                    Add, Inc., Solicitation Number GS-OlP-95-BZC-0047

03/14/97   A72439   Preaward Audit of a Claim for Increased Costs: HAP
                    Construction, Inc., Subcontractor to The George Hyman
                    Construction Company, Contract Number GS-09P-93-KTC-0034

03/17/97   A72432   Audit of Real Estate Tax Adjustments: Curacao Limited                                  $9,731
                    Partnership, Lease Number GS-09B-84827, Calendar Years
                    1986 Through 1996

03/17/97   A72433   Audit of Real Estate Tax Adjustments: L. A. World Trade                             $130,103
                    Center Partnership and Royal Investment System
                    Partnerships, Lease Number GS-09B-85563, Calendar Years
                    1989 Through 1996

03/17/97   A72451   Limited Scope Preaward Audit of Proposed Overhead Rate:
                    ET LaFORE, Inc., Contract Number GS-08P-96-JBC-0001

03/18/97   A70621   Preaward Audit of a Delay Claim: The Haskell Company,
                    Contract Number GS-04B-31363

03/20/97   A71211   Audit of Termination for Convenience Settlement Proposal:
                    Halstead Contractors, Incorporated, Contract Number
                    MOU-A-4-334




                                                                                          Office of Inspector General 41
                                 Appendix 1/- Audit Report Register

                                                                                                       Financial
                                                                                                  Recommendations
                                                                                            ------          -
                                                                                                     .----~----   -------_.   - - ------ --------

                                                                                             Funds To          Questioned
Date of       Audit                                                                          Be Put To        (Unsupported)
Report        Number                                  Title                                  Better Use           Costs


03121/97      A70632         Preaward Audit of Change Order Proposal: Expert Electric,
                             Inc., Contract Number GS-02P-94-CUC-0033(N)

03121/97      A71830         Preaward Audit of Cost or Pricing Data: Ceco
                             Concrete Construction Corporation, Contract Number
                             GS06P94GYC0076(N)

03121197      A72444         Preaward Audit of a Claim for Increased Costs: The
                             George Hyman Construction Company, Contract Number
                             GS-09P-93-KTC-0034

03124/97      A72434         Audit of Real Estate Tax Adjustments: WRC Properties, Inc.,                                                    $6,778
                             Lease Number GS-09B-88163, Calendar Years 1990
                             Through 1996

03/24/97      A72435         Audit of Real Estate Tax Adjustments: WRC Properties, Inc.,                                                    $7,050
                             Lease Number GS-09B-91634, Calendar Years 1993
                             Through 1996

03125/97      A70306         Preaward Audit of Architect and Engineering Services
                             Contract: R.G. Vanderweil Engineers, Inc., Solicitation
                             Number GS-OIP-95-BZC-0047

03125/97      A70629         Preaward Audit of Architect and Engineering
                             Services Contract: The Spector Group, Contract Number
                             GS-02P-92-CUC-0029(N)

03125/97      A70631         Preaward Audit of Change Order Proposal: Leewen Contracting
                             Corporation, Contract Number GS-02P-94-CUC-0054

03126/97      A72429         Preaward Audit of a Claim for Increased Costs:
                             Columbia Fabricating Company, Inc., Subcontractor to The
                             George Hyman Construction Company, Contract Number
                             GS-09P-93-KTC-0034

03126/97      A73614         Preaward Audit of Architect Engineering Services Proposal:
                             Interior Services, Inc., Solicitation No. GS-11P-97-MJD-0002

03127/97      A71827         Preaward Audit of Cost or Pricing Data: U.S. Engineering
                             Company, Contract Number GS06P94GYC0076(N)

03/27/97      A72441         Preaward Audit of Change Order Proposal: Rollie R. French,
                             Inc., Subcontractor to The George Hyman Construction
                             Company, Solicitation Number GS-09P-93-KTC-0034




42 Semiannual Report To The Congress
                          Appendix 1/ - Audit Report Register

                                                                                              Financial
                                                                                        -
                                                                                          Recommendations
                                                                                        .~~------------------------------




                                                                                    Funds To          Questioned
Date of    Audit                                                                    Be Put To       (Unsupported)
Report     Number                              Title                                Better Use          Costs

03/28/97   A71531     Preaward Audit of Supplemental Architect and Engineering
                      Services Contract: Globetrotters Engineering Corporation,
                      Contract Number GS-05P-96-GAD-0193


FSS Internal Audits
10108/96   A62507     Audit of Inventory of Sensitive Items, Western Distribution
                      Center, Stockton, California, Pacific Rim Region

01110197   A61830     Advisory Review of Operations of FSS's National Customer
                      Service Center

01/24/97   A62145     Audit of the Federal Personal Property Donation Program,
                      State of Arkansas

02106/97   A72402     Management Control Review of FSS Reinvention:
                      Decentralizing Regional Maintenance Control Center, Rocky
                      Mountain Region

02/27/97   A61545     Audit of the Personal Property Donation Program, Indiana
                      State Agency for Surplus Property, Great Lakes Region

02127/97   A62483     Audit of Security Over Depot Stock Items at the Western
                      Distribution Center, Pacific Rim Region


FSS Contract Audits
10102196   A60314     Postaward Audit of Multiple Award Schedule Contract: Lista                           $80,000
                      International Corporation, Contract Number GS-00F-8377 A

10102196   A60656     Postaward Audit of Multiple Award Schedule Contract:
                      Russo Music Center, Contract Number GS-07F-6776A for the
                      Interim Period May 12, 1993 Through June 30,1996

10102196   A61528     Postaward Audit of Multiple Award Schedule Contract: Life                           $159,214
                      Fitness, Inc., Contract Number GS-07F-6059A

10/03/96   A61559     Preaward Audit of Multiple Award Schedule Contract:
                      Steelcase, Inc., Solicitation Number 3FNS-B8-950001-B

10104/96   A50650     Postaward Audit of Multiple Award Schedule Contract:                                $291,199
                      Lumex, Contract Number GS-00F-8329A

10108/96   A61560     Preaward Audit of Multiple Award Schedule Contract:
                      Steelcase, Inc., Solicitation Number 3FNS-95-G20 I-B




                                                                                         Office of Inspector General 43
                                 Appendix 1/- Audit Report Register

                                                                                                      Financial
                                                                                            .."-
                                                                                        -----"-"
                                                                                                 Recommendations
                                                                                                  .. --
                                                                                                   ~   -   ----------------

                                                                                         Funds To             Questioned
Date of       Audit                                                                      Be Put To          (Unsupported)
Report        Number                                 Title                               Better Use             Costs


10/09/96      A61253        Limited Postaward Audit of Quantity Discounts: ABC School                           $20,463
                            Supply, Incorporated, Contract Number GS-07F-4701A

10/11196      A5l831         Postaward Audit of Multiple Award Schedule Contract:                            $1,172,287
                             Steelcase, Inc., Contract Number GS-00F-8629A for the
                             Period November 4, 1991 Through September 30, 1994

10/15/96      A61813         Postaward Audit of Multiple Award Schedule Contract:                              $179,751
                             Bend-Pak, Inc., Contract Number GS-07F-3076A for the
                             Period July 1, 1990 Through June 30, 1994

10/17/96      A53617        Postaward Audit of Multiple Award Schedule Contract:                                $50,038
                            Cantwell-Cleary Co., Inc., Contract Number GS-02F-6071A
                            for the Interim Period March 31, 1992 Through
                            October 31, 1994

10122/96      A61861        Postaward Audit of Multiple Award Schedule Contract:                                 $8,587
                            Terex Corporation, dba Mark Industries, Contract Number
                            GS-07F-5671 A for the Period May 1, 1993 Through
                            April 30, 1996

11101/96      A21882         Postaward Audit of Multiple Award Schedule Contract:                            $5,721,544
                             Hamilton Sorter Company, Inc., Contract Number
                             GS-00F-07065 for the Period November 14, 1988 Through
                             September 30, 1991

11101/96      A31851         Postaward Audit of Multiple Award Schedule Contract:                            $1,728,816
                             Hamilton Sorter Company, Inc., Contract Number
                             GS-00F-02598 for the Period August 26, 1988 Through
                             March 31, 1991

11/01/96      A31865         Postaward Audit of Multiple Award Schedule Contract:                              $801,506
                             Hamilton Sorter Company, Inc., Contract Number
                             GS-00F-02046 for the Period December 4, 1987 Through
                             September 30, 1990

11104/96      A62506         Postaward Audit of Multiple Award Schedule Contract:
                             Richard Young Products, Contract Number GS-02F-8832B
                             for the Interim Period September 9, 1994 Through May
                             31,1995

11106/96      A22154         Postaward Audit of Multiple Award Schedule Contract:                              $150,000
                             Alamo Sales Corporation, Contract Number GS07F19337

[ 1/06/96     A60344         Postaward Audit of Multiple Award Schedule Contract: S&S                          $343,533
                             Worldwide, Contract Number GS-07F-4823A



44 Semiannual Report To The Congress
                        Appendix 1/- Audit Report Register

                                                                                             Financial
                                                                                        Recommendations
                                                                                   ~------------- .. - . - - -...- ... _-"- ".-
                                                                                                                           --_.,"--

                                                                                   Funds To              Questioned
Date of    Audit                                                                   Be Put To         (Unsupported)
Report     Number                            Title                                 Better Use                   Costs


11106/96   A62511   Postaward Audit of Multiple Award Schedule Contract:
                    Magnavox Electronic Systems Co., Contract Numbers
                    GS-OOK-93-AGS-0702 and GS-35F-1112D

11/13/96   A51563   Postaward Audit of Multiple Award Schedule Contract: Onan                                  $334,939
                    Corporation, Contract Number GS-00F-0733F for the Period
                    December 22, 1990 Through November 30, 1993

11/21/96   A50938   Postaward Audit of Multiple Award Schedule Contract:                                       $110,793
                    Protective Security, Inc., Contract Number GS-07F-3398A
                    for the Period February 25, 1991 Through August 31, 1995

11/25/96   A62456   Postaward Audit of Multiple Award Schedule Contract: Aqua                                      $1,198
                    Serv Engineers, Inc., Contract Number GS-] OF-7787 A for the
                    Interim Period March 16, 1992 Through February 29, 1996

11/26/96   A62146   Preaward Audit of Proposed Price Adjustments Requested
                    Under the Economic Price Adjustment Clause: Monaco
                    Enterprises, Inc., Contract Number GS-07F-7832C

12/02/96   A40321   Postaward Audit of Multiple Award Schedule Contracts:                                      $418,414
                    Spectro Incorporated, Contract Number GS-00F-2362A; and
                    Contract Number GS-00F-93732

12/03/96   A72422   Preaward Audit of a Claim for Increased Costs: KLN Steel
                    Products Company, Contract Number GS-27F-40000

12/10/96   A60629   Postaward Audit of Multiple Award Schedule Contract:                                        $197,056
                    Maxell Corporation of America, Contract Number
                    GS-02F-881OB for the Interim Period October 26, 1993
                    Through April 30, 1996

12/11196   A61250   Audit of Claims for Increased Costs: CARAM, Contract
                    Numbers GS-04F-90-ETS-0451 and GS-04F-90-ETS-0466

12/11/96   A63642   Postaward Audit of Multiple Award Schedule Contract: DLT                                     $29,225
                    Solutions. Inc., Contract Number GSOOK94AGS5419

12/16/96   A50931   Postaward Audit of Multiple Award Schedule Contract:                                         $10,621
                    Techni-Tool, Incorporated, Contract Number GS-00F-0785A
                    for the Interim Period June ], 1993 Through December 31,
                    1995

12/26/96   A70614   Preaward Audit of Multiple Award Schedule Contract:
                    Precision Manufacturing, Incorporated, Solicitation Number
                    3FNS-95-G201-B



                                                                                           Office of Inspector General 45
                                  Appendix II - Audit Report Register

                                                                                                        Financial
                                                                                                   Recommendations
                                                                                           - - - - - - - - ------------

                                                                                              Funds To          Questioned
Date of       Audit                                                                           Be Put To       (Unsupported)
Report        Number                                  Title                                   Better Use          Costs


12/31/96      A70613         Limited Scope Postaward Audit of Multiple Award                                                 $5,llO
                             Schedule Contract: Johnson Camping, Inc., Contract Number
                             GS-07F-6307 A

01/10/97      A52159         Postaward Audit of Multiple Award Schedule                                                     $84,228
                             Contract: Austin Computer Systems, Inc., Contract Number
                             GS-00K-91-AGS-5201

01/10/97      A70911         Price Adjustments on Multiple Award Schedule Contract:
                             Carolina Shoe Company, Contract Number GS-07F-8148B
                             for the Interim Period May 1, 1994 Through October 31, 1996

01121/97      A70605         Postaward Audit of Multiple Award Schedule Contract:
                             Princeton Gamma-Tech, Incorporated, Contract Number
                             GS-24F-1263C for the Interim Period December 27, 1994
                             Through September 30, 1996

01/23/97      A70611         Postaward Audit of Multiple Award Schedule Contract:
                             Colenta America Corporation, Contract Number GS-25F-
                             6157D for the Interim Period March 25, 1996 Through
                             October 31, 1996

01/23/97      A70906         Postaward Audit of Multiple Award Schedule Contract:                                            $9,189
                             Carolina Shoe Company, Contract Number GS-07F-8148B for
                             the Interim Period May 1, 1994 Through November 21,1996

01/23/97      A71208         Preaward Audit of Multiple Award Schedule Contract:
                             New Hermes, Incorporated, Solicitation Number
                             7FXI -D7 -96-3201-1

01123/97      A71817         Postaward Audit of Multiple Award Schedule Contract:
                             Finishing Group, Inc., Contract Number GS-07F-5834A for the
                             Interim Period October 1, 1993 Through September 30, 1996

01124/97      A62132         Postaward Audit of Multiple Award Schedule Contract:                                           $62,887
                             Frymaster Corporation, Contract Number GS-07F-6490A

01/24/97      A62136         Limited Postaward Audit of Multiple A ward Schedule                                          $5,385,510
                             Contract Refund: Motorola, Incorporated, Contract Number
                             GSOOK93AGS0680

01/24/97      A62137         Postaward Audit of Multiple Award Schedule Contract:                                           $36,211
                             Frymaster Corporation, Contract Numher GS ·07F-18051

01127/97      A60667         Postaward Audit of Multiple Award Schedule Contract: Card
                             Technology Corporation, Contract Number GS-OOF-7167 A



46 Semianllual Report To The Congress
                            Appendix /1- Audit Report Register

                                                                                                  Financial
                                                                                             Recommendations
                                                                                        Funds To          Questioned
Date of    Audit                                                                        Be Put To       (Unsupported)
Report     Number                                 Title                                 Better Use          Costs


01129/97   A61857       Postaward Audit of Multiple Award Schedule Contract:                               $196,168
                        Intoximeters, Inc., Contract Number GS-07F-6122A for the
                        Period March 26, 1992 Through July 31, 1996

02/19/97   A61860       Postaward Audit of Multiple Award Schedule Contract:
                        Clarke Industries, Inc., Contract Number GS-00F-5435A for
                        the Period March 5, 1991 Through September 30, 1995

02/21197   A71510       Interim Period Postaward Audit of Multiple Award Schedule
                        Contract: Fellowes Manufacturing Company, Contract
                        Number GS-26F-00037

02/26/97   A60949       Postaward Audit of Multiple Award Schedule Contract:                                $25,501
                        Picker International, Inc., Health Care Products Division for
                        the Period February 1, 1991 Through January 31,1996,
                        Contract Number GS-00F-4523A

03/17/97   A41807       Postaward Audit of Multiple Award Schedule Contracts:                           $2,784,475
                        Krueger International, Inc., for the Period July I, 1987
                        Through November 30,1992

03/26/97   An115        Postaward Audit of Multiple A ward Schedule Contract: BMC                           $18,300
                        Software, Inc., Contract Number GSOOK93AGS5675 PS01

03/26/97   An116        Postaward Audit of Multiple Award Schedule Contract: BMC
                        Software, Inc., Contract Number GSOOK93AGS5675


ITS Contract Audit
01/16/97   A73607       Preaward Audit of Sole Source Contract: Systems Assessment
                        & Research, Inc., Solicitation Number GSC-TFGD-97-1002


FTS Internal Audit
12/02/96   A63019       Audit of the PAPCAP Price Adjustments                                           $8,500,000


FTS Contract Audits
10/03/96   A60666       Preaward Audit of Change Order Proposal: AT&T
                        Communications, Contract Number GS-00K-89AHD0008

12/17/96   A70606       Postaward Audit of Travel Costs: Centel Federal Systems                             $88,175
                        Corporation, Contract Number GS-OOK-89AHD0007


Other Internal Audits
10/10/96   A62717       Limited Audit of the Office of Management Services and Human
                        Resources' Fiscal Year 1996 FMFIA Assurance Statement

                                                                                             Office of Inspector General 47
                                 Appendix 1/- Audit Report Register

                                                                                                       Financial
                                                                                                  Recommendations
                                                                                          ---- - - - - - - - - " - - - - - - - - - - - - - - - - - - - - - - -

                                                                                             Funds To          Questioned
Date of       Audit                                                                          Be Put To       (Unsupported)
Report        Number                                  Title                                  Better Use          Costs

10/10/96      A62718         Limited Audit of the Chief Financial Officer's Fiscal Year
                             1996 Section 4 Federal Managers' Financial Integrity Act
                             Assurance Statement

10/10/96      A63032         Limited Audit of the Federal Supply Service's Fiscal Year
                             1996 Federal Managers' Financial Integrity Act Section 2
                             Assurance Statement

10/10/96      A63033         Limited Audit of the Information Technology Service's and
                             Office of the Chief Information Officer's Fiscal Year 1996
                             FMFIA Section 2 Assurance Statements

10/15/96      A62719         Limited Audit of the Chief Financial Officer's Fiscal Year
                             1996 Section 2 Federal Managers' Financial Integrity Act
                             Assurance Statement

10/15/96      A63036         Limited Audit of the Federal Telecommunications Service
                             Fiscal Year 1996 FMFIA Section 2 Assurance Statement

10/17/96      A63037         Limited Audit of the Public Buildings Service Fiscal Year
                             1996 FMFIA Section 2 Assurance Statement

11/08/96      A62716         Consolidated Report of Fiscal Year 1996 FMFIA, Section 2
                             Assurance Statements

12/02/96      A60944         Audit of GSA's General Management & Administrative
                             (GM&A) Expenses

12/10/96      A62128        Audit of Payment Processing Without Region 7 Finance
                            Division Obtaining Receiving Reports

12/16/96      A43006         President's Council on Integrity and Efficiency, Combined
                             Report on the Federal Civilian Agencies' Aircraft
                             Management Programs

01109/97      A62715         Audit of Time and Attendance Practices at the GSA
                             Interagency Training Center

01128/97      A63023        Audit of the National Capital Region's Emergency Support
                            Function

02/04/97      A62714        Limited Audit of the Public Buildings Service's "Crime Rate
                            in GSA Buildings Per 1,000 Employees" Performance
                            Measure

03/28/97      A61854        Audit of Controls Over GSA's Charge Card Programs



48 Semiannual Report To The Congress
Appendix 111- Audit Reports Over 12 Months Old with Final Action Pending


Pursuant to Section 810, Prompt Resolution of Audit             The GSA Office of Management Services and Human
Recommendations, of the National Defense Authorization Act,     Resources, Office of Management Services, Administrative
(Public Law 104-] 06), this appendix identifies those audit     Policy and Information Management Division furnished the
reports where final actions remain open 12 months after the     following information.
report issuance date.

                             Audits With Management Decisions Made After February 10, 1996
                                     For Which No Final Action Has Been Completed


Date of       Audit
Report        Number                                            Title

Contract Audits
02/21196      A60624       Preaward Audit of a Termination Settlement Proposal: ESC Poly tech Consultants, Inc., Contract
                           Number GS-07P-92-HUC-0067

02/21196      A60631       Preaward Audit of Change Order Proposal: AT&T Communications, Contract Number
                           GS-00K-089AHC0008

02/22/96      A63609       Audit of Claim for Increased Costs: R. Bratti Associates, Inc., a Subcontractor of the George Hyman
                           Construction Company, Contract Number GS-11P92MKC0062

02/29/96      A62445       Preaward Audit of a Claim: lAM/Environmental, Inc., Subcontractor to Hibbitts Construction, Inc.,
                           Contract Number GS-07P-91-JXC-001O

03/01/96      A60327       Report on Audit of Subcontractor's Claim for Increased Costs: Kendland Company Inc., Contract
                           Number GSOIP93BZC0003

03/01/96      A61519       Preaward Audit of Architect and Engineering Services Contract: Van Dijk, Pace, Westlake &
                           Partners, Contract Number GS05P95GBC0018

03/05/96      A61825       Report on Audit of Proposal for Initial Pricing of FAA LAAS, GPS Augmentations and International
                           Standards, RFP No. GSC-KEGD-95-1009: Wilcox Electric, Inc., Kansas City, Missouri

03/06/96      A41583       Postaward Audit of Multiple Award Schedule Contract; Boehringer Mannheim Diagnostics, Contract
                           Number GS-OOF-2325A

03/13/96      A60918       Preaward Audit of Multiple Award Schedule Contract: Development Dimensions International, Inc.,
                           Solicitation Number 2FYG-Jl-94-0004-B

03/15/96      A60928       Preaward Advisory Report on Agreed Upon Procedures: Arinc Incorporated, Solicitation Number
                           GSC-KEGO-95-] 009

03/18/96      A60318       Report on Audit of Claim for Increased Costs: Maron Construction Co., Inc., Contract Number
                           GS01P93BZC0003

03/19/96      A61224       Report on Audit of Proposal for Initial Pricing Under Solicitation No. GSC-KEGD-95-1009:
                           Integrinautics Corporation, Palo Alto, California




                                                                                                  Office of Inspector General 49
Appendix 111- Audit Reports Over 12 Months Old with Final Action Pending



Date of        Audit
Report         Number                                  Title


03/20/96       A61231         Report on Audit of Proposal for Initial Pricing Under Solicitation No. GSC-KEGD-95-1009: United
                              Airlines - UAL Services, San Francisco, California

03/21196       A60933         Preaward Audit of Federal Information Processing Support Services Contract: E-Systems, a
                              Raytheon Company, Solicitation Number GSC-KEGD-95-1009

03122/96       A60931         Preaward Audit of Federal Information Processing Support Services Contract: Project Management
                              Enterprises, Inc., Solicitation Number GSC-KEGD-95-1009

03/26/96       A61222         Report on Audit of Proposal for Initial Pricing Under Solicitation No. GSC-KEGD-95-1009:
                              Advanced Management Technology, Inc., Washington, D.C.

03/28/96       A61228         Report on Audit of Proposal for Initial Pricing Under Solicitation No. GSC-KEGD-95-1009: Racal
                              Avionics, Ltd. London, England

Internal Audits
Date of        Audit                                                                                          Projected Final
Report         Number                                  Title                                                   Action Date

03112/96       A50906         Audit of the GSA Purchase of Telecommunications Services                            10115/97
                              (POTS) Program

03/25/96       A53321         FSS' Stock Program Management Information Systems Need                              11115/97
                              to be Improved to Provide More Accurate and Reliable
                              Information

03/25/96       A51507         Audit of GSA's Value Engineering Program                                            04115/97

03127196       A43005         Audit of GSA's Aircraft Management Program                                          11/15/97

03/27/96       A62424         Audit of Criminal History Background Checks for Child Care                          04/09/97
                              Center Employees

03/29/96       A42724         Audit of the General Services Administration's Verification                         07115/97
                              of FTS2000 Billings

03/29196       A42720         Audit of Accounting and Billing Controls Over the Public                            10115/97
                              Buildings Service, National Capital Region's Reimbursable
                              Work Authorizations




50 Sellliannual Report To The Congress
                                    Appendix IV - Delinquent Debts


The GSA Office of the Chief Financial Officer provided the following information.

GSA Efforts to Improve                                             collection. This is especially true of the recently enacted Debt
                                                                   Collection Improvement Act of 1996.
Debt Collection
During the period October 1, 1996, through March 31, 1997,         • GSA continues to work with debtors with a financial
GSA efforts to improve debt collection and reduce the amount       hardship by entering into a Promissory Note for installment
of debt written-off as uncollectible focused on upgrading the      payments. This saves GSA and the Department of Justice time
collection function and enhancing debt management. These           and money by not prosecuting someone who cannot or will not
activities included the following:                                 otherwise pay a debt.

• Non-Federal claim collections for the PBS program thus far       • GSA performs quarterly follow-ups with the PBS
for FY 1997 is $3.4 million. Administrative offset for the         contracting offices concerning claims that are in dispute and
same program thus far is $2,365. Write-offs for PBS thus far       delinquent Out1ease and Concession acconnts, Quarterly
for FY 1997 are only $13,518.                                      follow-ups are also performed with the Administrative Policy
                                                                   and Information Management Division for audit-related
• GSA continues to participate in formal training and seminars     accounts. These offices are asked to help with the collection of
which focus on programs or new developments in debt                the account or with resolution efforts.


Non-Federal Accounts Receivable

                                                            As of                       As of
                                                        October 1, 1996             March 31, 1997            Difference

  Total Amounts Due GSA                                   $19,822,017                  $24,267,826            $4,445,809
  Amount Delinquent                                       $17,684,071                  $21,914,793            $4,230,722


  Total Amount Written
  Off as Uncollectible
  Between 10/1/96 and
  3/31/97                                                        $19,824


Of the total amounts due GSA and the amounts delinquent as of October 1, 1996 and March 31, 1997, approximately $399,000 and
$631,000 respectively, are being disputed.




                                                                                                      Office of Inspector General 51
                                          Appendix V - Reporting Requirements


The table below cross-references the reporting requirements                                     No. 96-829 relative to the 1980 Supplemental
prescribed by the Inspector General Act of 1978, as                                             Appropriations and Rescission Bill and the National Defense
amended, to the specific pages where they are addressed.                                        Authorization Act is also cross-referenced to the appropriate
The information requested by the Congress in Senate Report                                      page of the report.



                                                                 Requirement                                                                                                  Page

  Inspector General Act
        Section 4(a)(2)-Review of Legislation and Regulations ............................................................................................. 25

        Section 5(a)(l)-Significant Problems, Abuses, and Deficiencies ............................................................................ 2,11

        Section 5(a)(2)-Recommendations With Respect to Significant Problems, Abuses,
           and Deficiencies .................................................................................................................................................. 2, 11

        Section 5(a)(3)-Prior Recommendations Not Yet Implemented ................................................................................ 33

        Section 5(a)(4)-Matters Referred to Prosecutive Authorities ..................................................................................... 29

        Sections 5(a)(5) and 6(b)(2)-Summary of Instances Where Information Was Refused ........................................ None

        Section 5 (a)(6)-List of Audit Reports ......................................................................................................................... 36

        Section 5(a)(7)-Summary of Each Particularly Significant Report ......................................................................... 2, 11

        Section 5(a)(8)-Statistical Tables on Management Decisions on Questioned Costs .................................................. 28

        Section 5(a)(9)-Statistical Tables on Management Decisions on Recommendations
           That Funds Be Put to Better Use ............................................................................................................................ 27

        Section 5(a)(10)-Summary of Each Audit Report Over 6 Months Old for Which No
           Management Decision Has Been Made ............................................................................................................. None

        Section 5(a)(1l)-Description and Explanation for Any Significant Revised
           Management Decision ....................................................................................................................................... None

        Section 5(a)(l2)-Information on Any Significant Management Decisions With Which
           the Inspector General Disagrees ........................................................................................................................ None

  Senate Report No. 96-829
        Resolution of Audits .................................................................................................................................................... 26

        Delinquent Debts ......................................................................................................................................................... 51

  National Defense Authorization Act .............................................. '" ................................................ .49



52 Semiannual Report To The Congress
   ake
like
it's
yaur
maneyl
It is.
To report suspected waste,
fraud, abuse, or mismanagement
in GSA, can your

Inspector             eneral's Hotline
ToU~free 1-800..424 5210
                  0




Washington, DC metropolitan area
(202) 501-1780

or write:   GSA, IG, Hotline Officer
            Washington, DC 20405
Federal Recycling Program   Printed on Recycled Paper
